<html>
<title> - AN UPDATE ON EFFORTS TO DEVELOP AND SUPPORT THE IRAQI SECURITY FORCES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-154]
 
 AN UPDATE ON EFFORTS TO DEVELOP AND SUPPORT THE IRAQI SECURITY FORCES

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                              JULY 9, 2008


                                     
[GRAPHIC] [TIFF OMITTED]

                                     



                  U.S. GOVERNMENT PRINTING OFFICE
45-257                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                   HOUSE COMMITTEE ON ARMED SERVICES


                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK E. UDALL, Colorado              MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              PHIL GINGREY, Georgia
NANCY BOYDA, Kansas                  MIKE ROGERS, Alabama
PATRICK J. MURPHY, Pennsylvania      TRENT FRANKS, Arizona
HANK JOHNSON, Georgia                BILL SHUSTER, Pennsylvania
CAROL SHEA-PORTER, New Hampshire     THELMA DRAKE, Virginia
JOE COURTNEY, Connecticut            CATHY McMORRIS RODGERS, Washington
DAVID LOEBSACK, Iowa                 K. MICHAEL CONAWAY, Texas
KIRSTEN E. GILLIBRAND, New York      GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania             DOUG LAMBORN, Colorado
GABRIELLE GIFFORDS, Arizona          ROB WITTMAN, Virginia
NIKI TSONGAS, Massachusetts
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                Michael Casey, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, July 9, 2008, An Update on Efforts to Develop and 
  Support the Iraqi Security Forces..............................     1

Appendix:

Wednesday, July 9, 2008..........................................    41
                              ----------                              

                        WEDNESDAY, JULY 9, 2008
 AN UPDATE ON EFFORTS TO DEVELOP AND SUPPORT THE IRAQI SECURITY FORCES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Straub, Christopher C., Deputy Assistant Secretary of Defense for 
  Middle Eastern Affairs, Office of the Secretary of Defense.....     4
Dubik, Lt. Gen. James M., USA, Former Commanding General, Multi-
  National Security Transition Command-Iraq......................     5

                                APPENDIX

Prepared Statements:

    Dubik, Lt. Gen. James M......................................    45

Documents Submitted for the Record:

    Letter dated February 12, 2008, from Lt. Gen. James M. Dubik 
      to Hon. Joseph A. Benkert, with attached Force Generation 
      FMS PERT Diagram...........................................    59
    Letter dated September 17, 2007, from Headquarters, Civilian 
      Police Assistance Training Team to Deputy Chief of Mission, 
      U.S. Embassy, Baghdad, Iraq, regarding CPATT/MOI-TT 
      Transition Plan............................................    57

Witness Responses to Questions Asked During the Hearing:

    Dr. Gingrey..................................................    65
    Dr. Snyder...................................................    65

Questions Submitted by Members Post Hearing:

    Dr. Gingrey..................................................    70
    Ms. Sanchez..................................................    69
 AN UPDATE ON EFFORTS TO DEVELOP AND SUPPORT THE IRAQI SECURITY FORCES

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Wednesday, July 9, 2008.
    The committee met, pursuant to call, at 10:06 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. The committee will come to order.
    We meet today to receive an update on the status of efforts 
to develop and support Iraqi security forces (ISF). Our witness 
today is Lieutenant General James Dubik, who less than a week 
ago left his post as the commander of the Multi-National 
Security Transition Command-Iraq (MNSTC-I). We welcome you and 
thank you for your service. I understand you are going to be 
retiring in the near future.
    We also have with us, as I understand it, to answer any 
questions you might have, Christopher Straub, the Deputy 
Assistant Secretary of Defense for the Middle East.
    So welcome to you, and thank you, General Dubik, for 
agreeing to appear with us today. We appreciate your service as 
the commander in charge of training the Iraqis, as well as your 
some-37 years in the United States Army. We appreciate it. I 
understand that your wife, Sharon Basso is with us today, and 
daughters Karen and Katie. Am I correct? Where are they? Stand 
up so we can look at you.
    [Applause.]
    The Chairman. I know you are proud of your husband and your 
daddy. Thank you for being with us. It is a rare treat to have 
family with a witness.
    Recent events in Iraq, in particular the operations in 
Basra and Sadr City, have shown how far the Iraqi security 
forces have come in such a short time. But these operations 
also pointed out some problems that need to be addressed if any 
strategy that allows our forces to leave in the near future is 
to depend on effective, nonsectarian Iraqi security forces.
    The Iraqi security forces were able to move over a division 
in a short period of time. Combat operations in Basra relied 
almost entirely on Iraqis for ground forces with very few 
coalition troops in combat, as I understand it. But the 
operations also highlighted weaknesses in planning, logistics, 
fire support, and command and control.
    In our last hearing with our friend General Dubik back in 
January of this year, I mentioned the meeting I had with the 
Iraqi Minister of Defense, Mr. Qadir. Then, he expressed his 
personal belief that Iraq might be able to take responsibility 
for their own internal security as early as the first quarter 
of 2009 and would probably be able to handle their external 
security by 2018.
    I hope, General Dubik, you can help us understand if that 
aggressive 2009 goal can be met and hopefully you can provide 
us with your best assessments of the strengths on one hand and 
the weaknesses on the other of the Iraqi security forces.
    We have been working on building the Iraqi security forces 
now for five years. We have spent billions of dollars. The 
redeployment of American troops out of Iraq is dependent on the 
Iraqis being able to provide for their own security, and that 
redeployment is tied to our own national security. We need not 
go into all of that, which we have done a good number of times 
in this hearing room.
    We need a real and clear sense of where we are, general, in 
this effort, and how long it will take for the Iraqi security 
forces to be able to operate without us, and what the strategy 
is for getting us there. So thank you for this.
    Mr. Straub, we have been told you have no opening 
statement, but you are here to answer questions. We appreciate 
very much your doing so.
    I now turn to my friend, Mr. Hunter. Please.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman. Mr. Chairman, thank 
you for holding this very important hearing because this goes 
to the heart of the American operation in Iraq, and that of 
course is the development and deployment of a reliable Iraqi 
military force.
    General Dubik, let me join the chairman in congratulating 
you on 37 years of outstanding service to our country, and wish 
you the best of health and much happiness. And to your family 
that is with you today, congratulations on having such a hero 
for a father and for a husband.
    We are going to talk about today the coalition efforts to 
stand up the Iraqi forces. That is very critical. It is 
especially critical at this time because we are entering into 
formal agreements that detail roles, missions, and footprints 
for the future military presence in Iraq. Clearly, to determine 
the appropriate missions and force levels for U.S. troops, 
negotiators have to make certain assumptions about the ability 
of the Iraqi forces to shoulder more and more of the security 
burden over time.
    I know that both of our witnesses surely agree that the 
long-term solution to providing stability in Iraq has to rest 
with the Iraqis themselves, and that of course is in turn 
dependent on the capability and the reliability of the security 
forces. They have to be able and willing to, in General Dubik's 
words from testimony earlier this year, defend themselves, 
their citizens, and their new-found freedom.
    General, in your opinion, one thing I would like to know 
during this hearing is how close we are to realizing that 
situation, where the roughly 140 trained and equipped combat 
battalions, how well they perform in battle.
    Of course, in the unique situation with Iraq, it makes this 
somewhat different from an American training operation where we 
train forces, as we have in many other parts of the world. You 
have a real test laboratory here called a battlefield.
    So I know one thing that we are interested in is the 
performance of the Iraqis in the battlefield, in the battle 
space, their capabilities, their inadequacies, where those 
exist, and how we meet the gaps and move quickly to close them.
    As I understand it, we now have 139 line battalions, and 
you have 4 special operations battalions. So we have 143 Iraq 
battalions extant today. So if you could talk about that.
    In particular, I am concerned, as I have always been, about 
the ability of Iraqi battalions to saddle up, if you will, and 
move out and deploy in an area of operation (AO) that is 
different from the one where they are regularly stationed, 
perform a mission, and perform it largely independent of 
American support, and then move back to the area of operations 
to which they have been assigned.
    I know you have some examples of that, because of the Basra 
operation and of course the Sadr City operation. So the ability 
of the Iraqi forces to move out, accomplish a mission in a 
professional manner I think is of a lot of concern to us.
    On the hardware side, it seems to me that as U.S. forces 
draw down, for example the five surge brigades that are almost 
done redeploying out of Iraq, there is going to be a 
significant amount of major U.S. military equipment that will 
need to be shipped out of Iraq.
    It also seems to me that we may want some of this equipment 
to remain in Iraq, depending on various considerations, but not 
limited to Iraqi requirements, U.S. requirements, the condition 
of the equipment, and costs associated with transport and 
refurbishment.
    I think, General, it is important for the American people 
and for the effectiveness of the Iraqi military, to ensure that 
this equipment accountability is done with extreme 
professionalism, that we don't end up getting rid of a lot of 
great U.S. military equipment for five cents on the dollar.
    One thing that I haven't been able to pin down, and I hope 
you could get this for us, is how we arrive, if we leave 
equipment with Iraqi forces, at a price tag, if you move that 
through the foreign military supply system, for foreign 
military sales (FMS). I am reminded of, for example, when the 
Marines unhorsed their equipped Humvees, they had at one point 
1,800 of them parked at Taqqadum as they moved up to the 
heavier-armored Humvees.
    So I know that while we have some old equipment and some 
heavily used equipment in Iraq, we also have a lot of equipment 
that hasn't been used a lot. How much of that is moved to the 
Iraqi military, and how much of it is brought back to the 
United States is I think an important question for us.
    I think the worst scenario is for us to find out that we 
have a bunch of National Guard battalions, for example, that 
left their equipment in Iraq, or parts of their equipment in 
Iraq, and find out a year from now that we have massive 
inadequacies or massive gaps in their equipage because of what 
they left over there, and then find later that we gave away a 
lot of that equipment or transferred it for next to nothing.
    So having a clear and professional roadmap on how we handle 
the equipment piece of this Iraqi drawdown is I think a really 
critical aspect of any program for the next four or five 
months. I would like your thoughts on that. How do we do that? 
And how do we maintain a decent inventory of what we have and 
what we need? Because a big piece of this is going to be coming 
out of this operation with an American military that is ready 
for other contingencies.
    The last thing we want to be doing is slapping our 
foreheads a year from now or two years from now saying, doggone 
it, we have these important enablers and we left them in Iraq, 
and we are not sure where they are. So if you could give us 
your thoughts on that that would be I think very important.
    I think also one thing that I wanted to know, and I think a 
number of other members had questions about it, is how we fix 
this thing with the payment for the Iraqi forces. As we have 
all learned early on, a lot of the Iraqi military leave their 
units to go home because we don't have a pay system that 
enables them to stay put. Whether or not we are going to be 
able to change that cultural situation is unclear to me, and 
whether we have fixed that at all is also somewhat unclear.
    So if you could talk about that a little bit, and go over 
the basic pathway that an Iraqi unit or an Iraqi soldier takes 
now. As the chairman mentioned, we have been in this business 
for a long time now, longer than it took us to win World War 
II. So we ought to have a pretty good system in place to take 
that guy from a recruit status.
    And also the Sons of Iraq, who I understand are now being 
brought into the Iraqi army, how those people are taken from a 
recruit status through a training cycle, ultimately to a 
deployed unit, and how that unit is then integrated into the 
overall battlefield operation, if you could give us an idea on 
that, that would be excellent.
    So again thank you for being with us today. We appreciate 
your great service to the country, and we hope that we have the 
advantage of your wisdom for many years to come. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Straub, we have been told that you have a 
brief opening statement, and that primarily you are here to 
answer questions. If that is correct, you may proceed with your 
opening statement.

STATEMENT OF CHRISTOPHER C. STRAUB, DEPUTY ASSISTANT SECRETARY 
OF DEFENSE FOR MIDDLE EASTERN AFFAIRS, OFFICE OF THE SECRETARY 
                           OF DEFENSE

    Mr. Straub. Yes, sir. That is correct.
    I just want to join with the words of the chairman and the 
ranking member welcoming General Dubik, and saying what an 
honor it is to be at the same table with such a great trainer 
and innovator and developer of forces as General Dubik has been 
in his career. And also to join the committee in saluting 
Sharon Basso and their daughters Karen and Kate, representing 
military families throughout the country who have sacrificed so 
much for our country.
    With that, sir, I am ready for your questions.
    The Chairman. General Dubik, let's proceed now with your 
testimony. Your statement has been filed for the record and 
will be admitted in its entirety in the record. You can 
summarize it as you see fit.

 STATEMENT OF LT. GEN. JAMES M. DUBIK, USA, FORMER COMMANDING 
    GENERAL, MULTI-NATIONAL SECURITY TRANSITION COMMAND-IRAQ

    General Dubik. Thank you, Mr. Chairman and Ranking Member 
Hunter and members of the committee. Thanks to each of you for 
this opportunity to have a conversation upon the completion of 
my tour in Iraq.
    I would like also to thank the committee for your continued 
support for the men and women in uniform for the trips that 
many of you have made into the Iraq theater of operations and 
for the difficult work you have done on our behalf here. 
Without your support, this last year could not and certainly 
would not have been as successful as it was.
    The Iraqis are growing confident in their security forces. 
Operations in Basra, Sadr City, Mosul, Amarah, and other places 
have been initiated and primarily sustained by Iraqis. 
Certainly, the Basra operation was off to a rough start, but 
equally certain is this, that the Basra operation was 
tactically and strategically successful in the end in that each 
of the other operations in Mosul, Sadr City, and Amarah have 
been progressively better. Each one has helped develop the 
confidence and competence of the military and police, and each 
one cements in their minds the kinds of capabilities that they 
know they have to develop, and they are committed to their 
success.
    Since June of 2007, which was the high point of violence in 
Iraq, the Iraqi security forces have been increased in both 
size and capability. The total security force grew some 58,000 
in the defense forces and 64,000 in the interior forces. Of 
course, numbers and quantity are insufficient.
    Important quality indicators are also up. Gains in the 
percentage of leaders in the units, the percentage of soldiers 
who are present for duty, the numbers of air missions and naval 
patrols per week, and the overall operational readiness ratings 
are all trending in a positive direction.
    In the last 12 months, the Iraqis have built 11 brigade 
headquarters and 35 battalions. In another important indicator, 
the confidence the Iraqi citizens themselves have in their own 
security forces, has improved every month since November of 
2007.
    Challenges remain, however. The Iraqi security forces are 
still reliant on our enablers. Their training is basic. Their 
leader shortages still exist, and distribution of leaders is 
uneven. There are still pockets of sectarianism. And last, the 
problems of rapid growth that any nation would face are evident 
in the Iraqi security forces.
    To help ensure that we hold onto the successes that our 
soldiers, Marines, airmen, and sailors with Iraqi partners, who 
are fighting and dying at two to three times the rate of 
coalition forces, to hold onto those successes and achieve the 
quality improvements and professionalization that we all want, 
continued coalition advisory and training teams, along with 
partnership units, is necessary, as is Iraqi security force 
funding.
    From my standpoint, we should not underestimate the 
difficulty of the task remaining. The successes of the past 
year-plus are significant and are dramatic, but can be 
reversed, and they can be stymied. The enemies of the new Iraq 
are still very active, as recent reports have seen. They are 
still capable, though in diminishing frequency, of conducting 
violent attacks against the innocent. They still seek to 
destabilize and de-legitimize the government of Iraq. They want 
to reverse the gains of the last 15 months.
    They have not given up, nor does anyone expect them to. 
They recognize that they have lost the initiative, but they 
still seek to regain it. Our assistance may change in 
organization and size, to be sure, but some form of partnership 
and assistance consistent with our two nations' strategic 
objectives, in my opinion, is still necessary.
    Key to the development of the Iraqi security ministry's 
capacity has been their budget execution. The Iraqis' two 
security ministries have executed approximately $1.5 billion to 
$2 billion more each year from 2005 to the present. In 2008 
will be the third year in a row that they will have executed 
more money in their ministries of defense and interior than 
that in the Iraqi security force fund. We expect that to be the 
case also in 2009.
    The minister of interior has improved his execution rate 
since 2007, spending 89 percent of his budget. In 2008, he is 
continuing along that improved spending trajectory. The 
ministry of defense, however, only spent 75 percent of its 2007 
allocation and continues to have difficulty in executing his 
budget. Both ministries have requested and will receive 
supplemental funding. The minister of defense requested $1.8 
billion more. The minister of interior asked for $2.5 billion 
more. The MNSTC-I advisers will continue to do their best in 
helping the Iraqis spend their money for their defense.
    Aggressive use of foreign military sales programs is 
helping to equip the Iraq security forces. Delivery of FMS-
purchased equipment with Iraqi money remains satisfactory. I 
thank you for your support, and your colleagues, and thanks 
also to the Secretary of Defense's special task force on 
foreign military sales. One year ago, the total delivered in 
this category was only $115 million worth of equipment. Today, 
the total is over $1.4 billion. This accelerated delivery has 
made important positive contributions to the Iraqi security 
forces' capability.
    Two problems remain in foreign military sales, however. The 
first is processing time--too long here and too long in 
Baghdad. And second is the lag time between the Iraqi final 
decision to purchase equipment and the delivery. For example, 
as of today, the Iraqis have received, as I said, over $1.4 
billion worth of equipment, but they have ordered $2.7 billion. 
From their perspective, this gap is unsatisfactory.
    I would like to thank you again, Mr. Chairman and Ranking 
Member Hunter and the committee, on behalf of all the men and 
women of the Multi-National Transition Command--Iraq, for your 
support this past year. We have asked a great deal of the men 
and women and their families, and they have made enormous 
sacrifices.
    Our elected officials and fellow citizens have done a 
tremendous job in supporting our soldiers and Marines and 
airmen and civilians and sailors and their loved ones. We all 
appreciate that. We all acknowledge that. And the knowledge 
that our country appreciates its warriors' sacrifices and those 
of its families bolsters all of our determination.
    Thank you, Mr. Chairman.
    [The prepared statement of General Dubik can be found in 
the Appendix on page 45.]
    The Chairman. General, thank you very much.
    I have two quick questions, one for the secretary and one 
for you, then I will ask my colleague from California if he has 
questions.
    Mr. Straub, recent Department of Defense reports have said 
that the eventual size of the Iraqi security forces will be 
between 600,000 and 646,000 members. My simple question is, 
then, is that a U.S. plan or an Iraqi plan?
    General Dubik. Sir, that number came from a conjunction of 
studies.
    The Chairman. Wait. Does Mr. Straub know the answer?
    Mr. Straub. Sir, I would have to defer to General Dubik for 
the expert answer on that.
    The Chairman. Okay. General.
    General Dubik. Sir, that number came from a conjunction of 
studies done by the ministry of defense, joint headquarters, 
and the ministry of interior, as well as a Center for Army 
Analysis study and a commander's study. All four were done last 
summer and all four have similar assumptions, and all cohered 
about the number 600,000 to 650,000 as the right number for 
Iraqi army, air force and navy, police, national police, and 
border police.
    The Chairman. General, a very basic question. We have been, 
you have been, our country has been working on the Iraqi 
security forces now for several years. We have literally spent 
billions of dollars in that effort. In your opinion, when will 
the Iraqis be able to handle their own security so our troops 
will no longer have to do it?
    General Dubik. Sir, I think there are several parts to that 
answer. They are handling much of their security today. Nine of 
the 18 provinces are under provincial Iraqi control. Coalition 
forces occasionally conduct operations in those provinces, as 
we did in Basra, under certain circumstances, but by and large 
security is handled in those provinces by the Iraqi police and 
the Iraqi army. More provinces will go under provincial Iraqi 
control in the future. So that movement toward their 
responsibility will continue.
    Second, as we have seen in the series of operations from 
around Easter to now in Basra, Mosul, Sadr City, and Amarah, 
each of those operations were primarily conducted by Iraqi 
security forces, again national police, police and army, with 
our assistance in some command and control, intelligence, some 
logistics, and in fires and aviation support.
    That said, the aviation support in Basra by the two C-130s 
of the Iraqi forces, and the four MI-17s, was very significant, 
as was the Iraqis' CH-2000 intelligence surveillance and 
reconnaissance aircraft flying several hundred hours. So each 
operation I think has depicted their growing strength on the 
maneuver side, and identified the areas on the enablers that we 
all know that they still need some more development in.
    The Chairman. General, assume there is a great big calendar 
right there beside you, and you had to put an X on the month 
which would be in answer to the question that I put to you. 
Where would you put that X?
    General Dubik. I would not put an X on a calendar, Mr. 
Chairman. There are some aspects of the development plan which 
we are sure of, but others are still reliant on decisions not 
yet made in terms of Iraqi investments. For example, aircraft 
purchases that they know they have to make, those decisions 
have not been made. Until they are made, I don't know----
    The Chairman. I don't want to split hairs with you. Let's 
just look at the ground forces. What would your answer be? 
Where would you put that X as to ground forces?
    General Dubik. The ground forces will mostly be done by the 
middle of next year. Their divisions, brigades, and battalions 
are on a very good timetable there.
    The Chairman. That would be June or July of next year?
    General Dubik. Yes, sir. It depends on slippage of some 
dates. It would be June or it could be July.
    The Chairman. I am asking you to put the X up there. Where 
would you put it today?
    General Dubik. Well, again, I can't put an X.
    The Chairman. In your best judgment?
    General Dubik. It is going to be the middle of next year 
sometime. It could be as early as April or could be as late as 
August.
    The Chairman. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman. Again, thank you for 
having this very important hearing.
    General, as we turn over equipment or transfer equipment to 
the Iraqi military, let me understand the process. Help me to 
understand it. Is there some equipment on the battlefield that 
we have already turned over to them that we have basically 
given to them, like trucks, vehicles, maybe artillery pieces, 
small arms?
    General Dubik. Yes, sir. The only piece of transferred 
equipment to date are up-armored Humvees. We have transferred a 
little over 1,000, and the intent is to transfer about 8,500 by 
the end of next year. This equipment was first requested by us 
in theater, and sent to the Department of the Army and the 
Secretary of Defense's office for approval. That process took 
about five months. We began last March in transferring up-
armored Humvees to the Iraqi security forces.
    We have paid for the refurbishment of that equipment, and 
they paid for all of the maintenance of that equipment. They 
also pay for the long-term sustainment of that equipment, for 
the radios, for the weapons inside the Humvees.
    Mr. Hunter. Let me get this straight. You say we paid for 
the equipment. We paid for the refurbishment of the equipment. 
You say, they paid for the maintenance.
    General Dubik. Yes, sir.
    Mr. Hunter. Does that mean we gave it to them, and they 
have to maintain what we gave them for free?
    General Dubik. That is right.
    Mr. Hunter. But there was no price-tag on that equipment?
    General Dubik. The price-tag for the equipment for the 
Iraqis was none. We paid for that through the Iraqi security 
force fund, the fund that you appropriate for our use for the 
Iraqi security forces. We used that fund to accelerate the 
fielding of that equipment.
    The Iraqis have purchased with their own money about 1,500 
Humvees, and they are arriving at a certain rate. The 
refurbishment program allowed us to accelerate that rate, and 
that is part of the reason you see that they have been growing 
in confidence and in deployment throughout their country.
    Mr. Hunter. Now, the Humvees we gave them, were those new 
up-armored Humvees?
    General Dubik. No, sir. These were the old versions of 
Humvees that were replaced by mine resistant ambush protected 
vehicles (MRAPs). As the MRAPs come into theater, these older 
versions--114s, 1114s, and 1115s--then get refurbished and 
cascaded into the Iraqi security forces.
    Mr. Hunter. But the 114s, that is without necessarily the 
frag doors, are the latest generation of Humvees. They are not 
MRAPs, but MRAPs are not Humvees.
    General Dubik. Right. The latest generation of Humvees are 
1151s.
    Mr. Hunter. Yes, but we gave them around 1,000 114s?
    General Dubik. So far.
    Mr. Hunter. Are we coordinating with our own requirements 
with the National Guard, for example, with 114s? Because if you 
talk to the Guard here, a lot of them shed their vehicles when 
they went over to Iraq and didn't get them back. Presumably, we 
are going to have to re-equip them back here. Who made the 
decision to give the 114s away at no cost to the Iraqis?
    General Dubik. Sir, that decision comes into the Pentagon. 
The Army looked at all their requirements and made the final 
determination that this would be a satisfactory transfer. So in 
terms of the thought process that went back here through the 
Department of the Army and Secretary of Defense's office, you 
will have to call another witness for that.
    Mr. Hunter. Okay. So you just know that they made that 
transfer.
    General Dubik. Yes, sir.
    Mr. Hunter. With respect to other equipment, would it be 
wise for us if you have a slowdown in the sale of equipment, 
you said there is $1.4 billion that has been received, but $2.7 
billion that has been ordered. Especially if we are giving away 
things like the Humvees we gave away, it took us five months to 
decide to give them to them, it looks like you have a pretty 
slow bureaucracy in terms of moving equipment to the Iraqis. If 
we are going to be selling equipment to them, do we have a 
force or a team at the SecDef level that is ensuring that this 
thing takes place fairly quickly?
    General Dubik. Yes, sir. In fact, the Secretary of Defense 
had put together a special task force for FMS to Iraq. There 
have been several pretty significant successes. One is the 
acceleration of delivery. Again, at this time last year, we 
were at $100 million worth of equipment delivered, which was 
nothing. In a matter of 9 months, it is now at $1.4 billion. 
That is a huge success.
    Second, the standard for FMS processing in the United 
States around the world is generally about 120 days. For Iraq, 
the average is about 90 days, so that is again 30 days faster 
than anyone else, and oftentimes it is as low as 30 days or 35 
days, so that is also important. That said, as I commented in 
my opening remarks, 90 days is still too slow. When you add in 
Baghdad's 60 days to make a decision, you are up to 5 months 
again processing decisions. So that is something that the task 
force has in its sights and continues to work on, and one that 
I certainly would like to bring down another 30 days.
    Mr. Hunter. Okay. Who is paying for the personnel costs for 
the Iraqis--personnel in their security services? Is there any 
part of that that we are paying for?
    General Dubik. No, sir. They pay 100 percent of their 
salaries. They pay now since December 100 percent of their life 
support. They are paying most of their maintenance, and they 
are growing in their maintenance costs. The Humvees, for 
example, they purchased $85 million worth of spare parts for 
the first group of Humvees, and that will be a sustaining cost 
that they will incur. So more and more, they are paying their 
bills.
    In 2006, as I said in my statement, they started to spend 
more money in the ministry of defense and ministry of interior 
than we had access to in Iraqi security force funds. Their 
trend of spending is about $1.5 billion to $2 billion more 
every year on their security forces, which for still-developing 
ministries is a pretty hefty leap every year.
    Mr. Hunter. Okay. Mr. Chairman, I will have some more 
questions. I will wait. We have a lot of folks here. I will 
wait until the end of the hearing here, but I think we ought to 
focus on the transfer of equipment and the payment for 
equipment that is going to be turned over to Iraqi forces, and 
the accountability of that equipment.
    Because at the other end of this thing, you are going to 
have Guard units and some active units here in the states that 
have shed their equipment in Iraq, that we are going to be re-
equipping with a pretty good price tag. So I think making sure 
that we account for everything and that we are paid for the 
good equipment that is transferred over is I think an important 
responsibility for this committee.
    Thank you.
    The Chairman. I thank the gentleman from California.
    The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. Mr. Chairman, I am going to yield my time to 
Iraqi veteran, Mr. Murphy.
    The Chairman. The gentleman from Pennsylvania, Mr. Murphy.
    Mr. Murphy. Thanks, Mr. Chairman.
    And thank you general and Mr. Straub for being here today.
    General, when I was in Iraq with the 82nd Airborne in 2003, 
I helped train 600 of the Iraqi forces. I am concerned that now 
five years later after I was there, the Iraqi security forcers 
are still not coming off the sidelines and standing up for 
their country. I think in your testimony that we all read, you 
rightly point out the difficulty of growing and training an 
army for a country, let alone a nation that is as troubled as 
Iraq.
    Sir, the Government Accountability Office (GAO) report that 
came out last September that stated that the Iraqi battalions 
rated as capable of operating independently of U.S. forces had 
actually decreased from 10 to 6 battalions. So in the Iraqi 
army, attrition levels are so high that only 81 percent of 
authorized personnel are actually on duty at a given time. So I 
am concerned that our growing and training of the Iraqi forces 
is a mile wide, but only an inch deep.
    So when you look at the number that keeps increasing on the 
amount trained, but the increased operational capability does 
not seem as though it is coming along on an equal number. So I 
think the Department of Defense (DOD) has focused on the total 
number of Iraqi forces trained, when our focus should really be 
on the readiness and capability of those forces.
    So my question for you, sir, has the number of Iraqi army 
battalions capable of independent operation increased since 
September of 2007 when the last GAO report came out? And if 
not, if you could elaborate why, I would appreciate that.
    General Dubik. Well, first off, if I could, the focus is 
not just on numbers. It is very much on quality indicators. We 
began in September, for example, with a unit-set fielding 
system where the Iraqi soldiers come out of the training base, 
then go to a common training center, one of several around the 
country, receive at that time their leaders and their 
equipment, and go through another six weeks or more of training 
as a unit. Then, they are sent into the battle space with 
embedded teams and partnership units, as one of several 
examples of clear emphasis on quality.
    Second, I would say that the percentage of leaders in the 
Iraqi army units are now in the high 60 percent, close to 70 
percent, both noncommissioned (NCOs) and officers. One year 
ago, those numbers were well below 50 percent. So the 
percentage of leaders is growing. That percentage, though, even 
at 66 percent, will empirically not allow a unit to reach 
readiness level one. But it has not in any way stopped their 
organizations from fighting, from standing in the fight.
    Mr. Murphy. I will be very respectful, sir, and I 
understand, and I know the backbone of our Army, sir, is our 
NCO corps. I got that, and I understand, and that is great, 
that the NCOs and the leaders, the mid-level leaders in the 
Iraqi army is increasing at 50 percent to 60 percent. But 
still, when you look at the operational forces, it went from 10 
battalions to 6 battalions. That is obviously a concern.
    General Dubik. First off, I don't know the date of that 
report, because there are right now 12 Iraqi battalions that 
are in the Operational Readiness Assessment (ORA) level one, 
which is independent operations, but there are 90 in ORA level 
two, which is a significant increase just since last January. 
The ORA ratings, if I might suggest, are not really the best 
indicators to use on fighting power. Many of our own 
organizations are at readiness level two in fighting. Well, we 
fought an entire war, World War II, where a good number of 
organizations were less than the highest rating, with less than 
full complements of leaders.
    So my observation would be that in the beginning of the 
Baghdad security operation, where the Iraqis had a tough time 
getting nine battalions together, compared to an organization 
that moved one division under its own power, one brigade from 
Al Anbar to Basra, another national police brigade from Basra 
to the south, moved them into combat and conducted combat 
operations, and then within another month shifted a national 
police brigade and another brigade from Al Anbar up to Mosul, 
while it was sustaining operations throughout the rest of the 
country, then made another shift to Sadr City and another shift 
to Amarah, is an example of Iraqi security forces who are 
growingly capable of executing operations, even at ORA levels 
two and three.
    True, with our enabler requirements, no doubt about that, 
but that had been part of the strategy to develop the maneuver 
forces first, and then once we got close to the end of maneuver 
forces, to begin developing enablers. We have done that. By the 
end of this year, they will be substantially independent in 
their logistics operations.
    By the end of this summer, they will have air-to-ground 
capability with machine guns and rockets. By the beginning of 
next year, they will have air-to-ground capability with some 
kind of precision weapon not yet determined. So they are 
growing in their capability of the enablers, which is one of 
the things that we have to do so that we can get more into the 
fully independent category.
    Mr. Murphy. Well, I appreciate the question. My time is up. 
That report was in September 2007, so it is less than a year 
ago.
    General Dubik. A long time ago in Iraq, congressman.
    Mr. Murphy. So is five years ago. I am glad I am on this 
side of the ocean.
    Thank you, sir.
    Thanks, Mr. Chairman.
    The Chairman. The gentleman from New York, Mr. McHugh, 
please.
    Mr. McHugh. Thank you, Mr. Chairman.
    General, first of all thank you for your service, certainly 
in your most recent posting, but in a career of dedicated 
service to this Nation, to the men and women that wear the 
uniform of this Nation. We all deeply appreciate that, and wish 
you and yours the very best in the future, in whatever path you 
may choose to follow.
    I have a hard time--I am still not sure which was your 
daughter and which is your wife. [Laughter.]
    It is a beautiful family.
    General Dubik. On her behalf, I thank you.
    Mr. McHugh. You have a beautiful family, and I wish you all 
the best.
    With respect to the Iraqi forces, we look back on the 
history of that nation, and it has always been one of sectarian 
strife. Certainly the government that was headed by Saddam 
Hussein was a sectarian minority, ruling over a majority. The 
last thing I think any of us want to see is just a switching 
from one sideline to the other as to a divided nation.
    Key among the challenges it would seem to me at least is 
putting together an effective ISF across the board--the police, 
the army, et cetera--is to try to bring together some sectarian 
cooperation. How would you assess that effort as it stands 
right now among these forces?
    General Dubik. Sir, I will use the national police, if I 
could, as an example because that had been last summer the 
subject of quite a bit of description in their sectarian 
behavior. The minister of interior, and the minister of defense 
as well, but I will use the national police as the primary 
example, has been very attentive to eliminating the sectarian 
behavior of the national police.
    He chased out all of its senior leadership, both division 
commanders, 9 of the 9 brigade commanders, and 17 of 28 
battalion commanders. When he replaced them, he put either a 
Sunni or Shia in charge. Where there was a Sunni commander, 
there was a Shia executive officer. The split is roughly 70 
percent Shia and 30 percent Sunni. He has also done a very good 
job in recruiting Sunnis specifically for the rank-and-file of 
the national police so that they are representative of the 
nation itself.
    The minister of defense, in a joint headquarters, similarly 
with the division commanders and below, is attentive to their 
loyalty to the government and their proficiency. There is 
certainly the case that there are pockets of sectarian behavior 
in both police and military, but it is not lost on either of 
the ministers their requirement to produce a national force. It 
will take some more time to flush that out of the system 
because of the horrific sectarian violence that did occur in 
late 2005 and 2006 and early 2007.
    Mr. McHugh. The Anbar awakening led to a movement that has, 
certainly in the Sunni areas, been particularly important 
toward turning the tide. And yet it has at the same time 
created a parallel structure, if you will, be it militias at 
the hardcore end or locally based security forces. How would 
you judge the path ahead as to integrating those forces in a 
routine way or disbanding them, or whichever path we take? What 
kind of insight can you give us on that process?
    General Dubik. Sure. I would like to start first by 
recognizing how important that awakening and the Sons of Iraq 
movement that fell from the awakening, have been to the 
improved security situation. They have contributed 
significantly to the downturn in violence, to the discovery of 
more and more caches of equipment, arms, and explosives, and in 
that way have been a very important force in moving forward in 
the past 15 months.
    Right now, there are about 100,000 Sons of Iraq. So far, 
about 14,000 have been assimilated into the security forces, 
mostly police, in a system that is somewhat bureaucratic, but I 
think a necessary bureaucracy because each of these Sons of 
Iraq are vetted through the Iraqi security system and then 
hired officially as policemen by the minister of interior. So 
once these 14,000 are hired, they are no different from any 
other policeman in Iraq, hired on central orders and working 
there.
    There still are tens of thousands that need to transition. 
Most want not to be in the security forces, but just to have 
jobs in the local area. Our census that we take as they come in 
indicates that somewhere between 20 percent and 30 percent want 
to go into the army or the police. Most want just jobs in the 
area once the security situation is better.
    So the first step in that regard, the government has 
allocated about $196 million to start assuming the payment of 
these Sons of Iraq while they are security contracts and have 
initiated two non-security programs to make the assimilation 
occur once the security situation permits.
    The first is an Iraqi civil service corps, very similar to 
the Civilian Conservation Corps that we had in our Depression 
period, where they are attempting to bring these Sons of Iraq 
into conservation kinds of jobs, cleanup jobs, fixing jobs, 
reconstruction kinds of jobs which are very prevalent. So as 
soon as the situation is good enough that they are not needed 
for security, we are going to figure out how to bring them in. 
The minister of interior is very much involved in coming to 
that kind of plan.
    The second is a plan for education and vocational training 
that will bring Sons of Iraq in, give them education and 
vocational training, and send them to a job. Until the job 
sector is more fully developed, that program will be a little 
slower than the first program. But my expectation is that in 
the coming months, those programs will start taking on greater 
importance, and we will see some of the Sons of Iraq transition 
not into the security forces, but into these other kinds of 
jobs.
    The Chairman. I thank the gentleman.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    General Dubik, welcome to you and your family, and thank 
you for your service.
    In January, the Iraqi minister of defense suggested that it 
was his personal belief that the Iraqi security forces would be 
able to take responsibility for internal security as early as 
the first quarter of 2009. My question is similar to the 
chairman's question that he asked you earlier. But what I would 
like to know is, given that today The Washington Post reported 
that Iraq's national security advisor had indicated yesterday 
that his government would not sign an agreement governing the 
future role of U.S. troops in Iraq unless it includes a 
timetable for their withdrawal.
    There are a number of issues that I think I have heard you 
comment on here today. But I would like to know, in your view, 
what would it take to make this possibility a reality, number 
one. And number two, how does this feeling on the part of the 
Iraqi government influence or drive our own withdrawal 
timelines? And I guess in your opinion, is this realistic, 
given the short conversation you and I had about just one 
aspect of it, which is the air support aspect of it? So could 
you comment to the committee on that?
    General Dubik. Yes, sir. With respect to the first quarter 
of 2009, the minister of defense in another forum talked about 
a period beginning somewhere in the first quarter of 2009 
ending in 2012 as the period in which he thought he could take 
on full responsibility for the counterinsurgency fight.
    I think that is an accurate period because of the time 
necessary to develop an air force, the time necessary to finish 
the development of the navy, for border security, and to make 
other purchases of equipment that he knows he has to make. By 
the time that is bought, delivered and used, that period is a 
good period.
    In terms of accelerating, one of the main accelerants and 
why we are in a position now that we are in, one of the reasons 
is the judicious use of the Iraqi security force funds that you 
appropriate for our use. This is a huge accelerant, and we were 
able to use in the last 14 months this money to bring online 
brigades, battalions, divisions, and in some small cases other 
capabilities, faster than the Iraqis would have by themselves.
    They would have ultimately formed this, but maybe not for 
another year. So using the Iraqi security force funds 
partially, again from Representative Hunter's question, 
accelerating the development of refurbished Humvees, these 
kinds of capabilities we can bring on faster. I just want to 
say how much I appreciate the money that you appropriate for 
that use.
    Mr. Reyes. And given the, not so much the current situation 
or the current challenges that are there now, but the potential 
for deterioration as it involves influence by the Iranians or 
others in the region, how realistic is it in terms of a 
withdrawal by our troops that they would be able to stand up 
and take care of their own country?
    General Dubik. The last conversation I had with the 
minister of defense was very clear in this assessment and his 
understanding that there are still capability deficiencies in 
his force, most notably in aviation, in direct fires 
capability, and in sustainment, and secondarily in intelligence 
fusion and command and control.
    He has, with a joint force, plans to fill those 
deficiencies, but in every one of those areas, those are not 
going to be fixed in any short term. So what is said at the 
policy level, of course, that is beyond my ability to comment 
on, but in terms of his assessment of actual capabilities, that 
was our conversation.
    Mr. Reyes. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Bartlett, the gentleman from Maryland.
    Mr. Bartlett. Thank you very much, Mr. Chairman.
    Remembering all those years I sat in the front row with 
great questions I never had a chance to ask, I yield my time to 
Mr. Conaway.
    Mr. Conaway. Well, thank you, Mr. Bartlett. I appreciate 
that. You put a high bar that I have great questions.
    Gentlemen, thank you for coming today. On a going-forward 
basis, General Dubik, and this transition period that we are 
going to be in between now and when the Iraqis take full 
control of their country as they should, what do you see as the 
pitfalls or the greatest risks to the contingent success of 
moving the Iraqi security forces to the point where they are in 
full control of the country?
    General Dubik. Sir, from my perspective, there are several. 
First, on both sides, coalition forces and Iraq, declaring full 
success too early is itself a risk. There has been huge 
progress. There has been significant improvement in every 
possible way you can measure it, but full success is not yet at 
hand.
    Second, the enemy is of course a thinking enemy, a very 
cunning enemy that has not given up, that we don't know what 
they are thinking. We do know that they remain capable. They do 
want to derail the improvement in the security situation and 
derail the progress in the political front as well in Iraq. 
What they are going to do and what they might do and the 
reaction that they might get is still an unknown.
    From the purely capability standpoint of the Iraqi security 
forces, time necessary to finish building the combat enablers 
that I refer to, the fires and aviation, and logistics and 
command and control and intelligence. These capabilities take 
time. It was hard enough to build the divisions, the brigades, 
and the battalions, but then putting all those together with 
the other enablers will require some additional training and 
some additional time.
    The last related, as I indicated earlier, the decision-
making process within the ministry of defense does not keep 
pace all the time with the capability development timeline that 
his joint staff has laid out for the ministry. So the slowness 
in decision-making is also a risk that may not be significant, 
but could be and this bears watching all the time.
    Mr. Conaway. With respect to the resources needed to train 
those enablers, if you would speak to us about what, if 
anything, should be our role in building that capacity. And 
also, we have heard recently where Iraq has begun to negotiate 
contracts with the major oil companies--ExxonMobil, BP, Shell, 
Chevron. Who will provide the security necessary for those 
companies to operate the way that they should?
    General Dubik. Well, sir, on the first part of your 
questions on resources needed for training, right now the 
Iraqis pay for the life support for all the training that goes 
on in their training base.
    Mr. Conaway. The fighting force is fine. I am talking about 
the logistics, aviation, intelligence--what role should we have 
going forward with those guys?
    General Dubik. Our role has been in the logistics area to 
assist them in laying out a correct plan. Right now, 8 of the 
13 logistics commands are already built. The other five will be 
built by the end of the year. The national depot system started 
online three months ago and will be finished coming online by 
the middle of next summer. On motor transport regiments, 9 of 
the 13 are already formed and the other 6 will be formed. Half 
of the general transport regiment is formed. The other half 
will be formed this summer.
    So our role here is to now partner with their logistics 
units like we have partnered with their combat units to help 
them develop the systems and the organizations and the habits 
that will make that infrastructure come alive with the right 
processes and managerial techniques.
    On the aviation side, the commitment is a little different 
in that they are starting building their air force really from 
scratch. It is pilot training. It is English language training. 
It is infrastructure requirements. It is the coaching that we 
provide and the assistance and training we provide for the 
Iraqi air force in putting together what is a very complex and 
a long-term plan for the building of the Iraqi air force. In 
each of the other areas, there are similar kinds of advisory 
roles.
    On the security for the pipeline, sir, that is yet to be 
determined. The facility protection service, the oil protection 
service part of it, has just been given to the ministry of 
interior, so he will have part of that responsibility. The 
minister of defense has the 12th infrastructure division, which 
is also responsible for partial protection of the pipeline. How 
this new arrangement will be is still very much unknown at this 
point.
    Mr. Conaway. Thanks, Mr. Chairman.
    Thanks, Mr. Bartlett, I appreciate that.
    The Chairman. Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Thank you, general, for your service, and for your family.
    I don't think anyone has asked you yet about the letter 
that you sent on February 12 to the Assistant Secretary of 
Defense for Global Security Affairs, Mr. Benkert, with some 
suggestions. I assume that was kind of a winding-down letter, 
here is what I have learned, here is what I think you ought to 
do. Do you have a copy of your letter there in front of you?
    General Dubik. I do.
    [The information referred to can be found in the Appendix 
on page 59.]
    Dr. Snyder. I would like you to kind of run through that. 
First of all, have you received either an informal or a formal 
response back to your letter yet?
    General Dubik. Informal, yes, sir. But if I could, in 
February, I didn't feel like it was very much winding down. 
This was just part of my job.
    Dr. Snyder. Part of your job, if somebody comes to visit 
and you were responding.
    I would like to run through these. First, in the second 
paragraph, you talk about, you say the first of these Iraqi 
army units requires the delivery of substantial foreign 
military sales supplied equipment in the first week of July, 
2008. We are now past the first week of July, 2008. Did that 
occur?
    General Dubik. I am trying to find it.
    Dr. Snyder. It is the second paragraph.
    General Dubik. Yes, quite a bit has been delivered, not 
all, but quite a bit has been delivered.
    Dr. Snyder. And then you go through a list of specific 
suggestions. I would like to skip the first one and go to one 
that applies to Congress. You offer the following 
recommendations to speed action along the critical path of 
getting equipment, reduce congressional notification time 
requirements. You say, ``Preparing for and obtaining 
congressional approval is the most time-consuming component 
along the critical path; I ask you to consider options to 
reduce these days to an absolute minimum,'' and you go on.
    Would you talk about that more? Are there things that we 
should be doing at this end to help with that process?
    General Dubik. Well, I attached, Mr. Congressman, to the 
letter a diagram that I think you probably received that my 
staff put together.
    Dr. Snyder. Is this the diagram here? I think it is.
    [The information referred to can be found in the Appendix 
on page 62.]
    General Dubik. Yes, sir. We put it together from our 
standpoint. Again, I am in Iraq, not here, but from our 
standpoint this is the sequence of events and number of days. 
So I just asked Secretary Benkert to look at the congressional 
notification and see if there were some areas that together 
working with the committees could be scrunched down. I didn't 
know which ones specifically because I am not an expert in 
this, but I suggested to him as the expert to at least do some 
detailed analysis and see where there might be some time 
efficiencies gained.
    Dr. Snyder. To your knowledge, has that analysis been done? 
Has anyone come back to you and said, ``We now have this worked 
out''? It is now 63 days instead of 74 days, and we are moving 
in the right direction. Or is that still a work in progress?
    General Dubik. No one has come back to me with that kind of 
specific answer, but if I could turn to Mr. Straub.
    Mr. Straub. I can't tell you specific days of reduction. 
However, I can tell you that Secretary Benkert takes this on as 
one of his most important missions and is constantly driving 
his team to do this both here and in visiting Iraq, to try to 
get these numbers down.
    Having said that, sir, the Department doesn't have a 
legislative recommendation at this time for changing the law on 
how foreign military sales are approved.
    Dr. Snyder. We all play a role in these things. It is an 
appropriate role. On the other hand, when we see--and certainly 
the general had no malicious intent by including the 
congressional notification process in here. When you see our 
notification process cited as one of the problems, we want to 
get it resolved. It is to the advantage of everyone.
    So I would hope that you would get back to us in a timely 
fashion if there are things we need to do. There may be some 
statutory issues. There may be some courtesy issues, some 
procedural issues. But if we are part of the problem, we would 
want to know about it. So I hope that you would get back to us 
on that, Mr. Straub.
    Mr. Straub. Okay. Happy to.
    [The information referred to can be found in the Appendix 
on page 65.]
    Dr. Snyder. Is there anything else on that list, general, 
in the letter that you have there that you would like to 
comment on in terms of any additional information you have 
since this letter was sent in terms of either better or worse 
than what you have cited?
    General Dubik. Sir, I only would cite the next bullet that 
begins ``conducts simultaneous actions.'' Our recommendation 
had been to determine in the set of activities which could be 
done simultaneously, rather than sequentially. We did on the 
chart again identify several of those to suggest, rather than 
moving from one office and then the next and then the next, 
maybe we could work more collaboratively. We have begun to do 
some of that, but I still think that there is lots more work to 
be done in that regard.
    Dr. Snyder. Right. Thank you.
    I guess my final question is, when you retire, are you 
going to teach philosophy? I notice that is what your 
background was in.
    Thank you for your service.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Before I call on Mr. Jones, Mr. Straub let me ask you, what 
is the Department of Defense doing to ensure that the 
transition teams in the ministries of defense and the interior 
are fully staffed, and not only fully staffed, but staffed with 
the right people?
    Mr. Straub. Sir, it is a very high priority. In our 
personnel system, we are doing everything we can to get those 
teams out there and to have them be the right people. I 
recognize that we still have some work to do to get to 100 
percent in a number of those areas, particularly so on the 
police training team side, but we understand how important it 
is. That was particularly demonstrated in the Basra operation, 
how important those teams are with Iraqi troops. So we mean to 
have them there.
    The Chairman. My understanding is that in many instances, 
some colonels are being sent over there to do the work that 
civilian types could do. Are you familiar with that?
    Mr. Straub. No, sir, I am not.
    The Chairman. Okay.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    General, thank you, as everyone else has, for your 
leadership and all the good that you have done for this 
country, as well as all of our men and women in uniform. I have 
Camp Lejeune Marine Base in my district, which I have the 
privilege to represent.
    My question really will go back to Mr. Straub. Mr. 
Secretary, I was listening very intently to the testimony by 
General Dubik. My question is, do you agree? I think we all are 
pleased to hear the positive, and obviously not everything is 
positive, but most of it has been very positive. Progress is 
being made.
    I look at the situation in Afghanistan, and because we have 
had our Marines from Camp Lejeune extended another 30 days, and 
I have great respect for Secretary Gates, and Gates said in 
this committee and the press that when they go, they will be 
coming back in the time deadline, and then it is being extended 
for 30 days. It is probably going to be two months.
    My concern as a member of this committee, and more 
importantly as an American citizen, is I believe the Iraqis are 
doing the best they can do. I think progress is being made. But 
Mr. Secretary, my question to you is if three years from now, 
and nobody knows what three years brings, but if three years 
from now a general and an assistant secretary is sitting before 
those who are in Congress, and I might not be here at that 
time, and we are hearing about the same thing--we are almost 
there, but we are not quite there.
    My concern is in this period of time, what are we doing to 
our military? Everything I am reading in the paper, and I will 
let you answer in a moment, but this is from Admiral Mullen, 
the Taliban and their supporters have without question grown 
more effective and more aggressive in recent weeks as the 
casualty figures clearly demonstrate. We are getting into a 
situation that I realize that when a statement has been made 
for five years by the White House and everyone else, when the 
Iraqis stand up, we will stand down.
    Where are we in that statement? I am very concerned about 
the Army. I am very concerned about the Marine Corps. They are 
stressed beyond imagination, and this has nothing, General, to 
do with the success that you and others have achieved.
    General Dubik. When General Petraeus testified most 
recently, he did acknowledge the fact that one of the facts 
bearing on his decision in terms of force adjustments is the 
status of the Army and Marine Corps primarily. We do all think 
about that. These are our professional colleagues. These are 
our families. So all of us are aware of the stress that has 
been on the force for the past years.
    That being the case, to answer your specific question, we 
have nearly completed the reduction of the first five brigades. 
Given the security situation, the expectation is that we will 
be able to further reduce the force structure in Iraq. These 
reductions will have a positive effect on both the Army and the 
Marine Corps, and the families that support their members.
    The success that we have had, though, is a success that we 
don't want to preemptively return to the enemy. So the issue 
for us, as always, is what is the minimum required to do the 
job that we have been given. We think that in Iraq anyway, that 
requirement will need a continued some set of advisers, some 
set of trainers, and some set of partner units. That will 
diminish and has been diminishing over time, no doubt about it, 
but to provide training and assistance and advice until the 
force is fully self-sufficient or until the two governments 
feel it is satisfactory enough, is something that we should 
remain committed to.
    Mr. Straub. Sir, could I just add to what General Dubik 
said, trying to give it more from what we see from the Pentagon 
perspective as far as where are we on this continuum of the 
Iraqi security forces so that we are not having similar 
testimony in two years, three years, four years.
    I think this year of 2008 has been a very significant year 
because it is a year in which the Iraqis themselves deployed 
their forces on their own initiative and took big risks to do 
it and have had success in a series of operations. That success 
has given them confidence in those forces. We are hearing that 
confidence in their statements about their sovereignty and 
their concern for their sovereignty. We are seeing it in the 
greater political support that they are giving their prime 
minister.
    Is this reversible? Sure it is, for the reasons that 
General Dubik gave. But there is a confidence in these forces 
now that they can do things. With that confidence comes an 
impatience to do more. That is a healthy thing. So I think we 
are fairly well down that continuum in Iraq. Of course, as you 
know, Iraq is a country with great resources. Afghanistan, 
conversely, and Afghanistan is not in my area of 
responsibility, but Afghanistan lacks resources by comparison, 
so it could be a more enduring challenge than Iraq.
    Mr. Jones. Thank you, Mr. Chairman.
    Mr. Spratt [presiding]. Mrs. Tauscher.
    Ms. Tauscher. Thank you, Mr. Chairman.
    General Dubik, good to see you again. I think we visited 
last when I was in Iraq in August.
    Mr. Straub, good to see you, too.
    I have been concerned for quite a long time about the 
police training. Certainly, any successful counterinsurgency 
strategy would include a regular constabulary. As we all know, 
this is a mission set that normally falls under the State 
Department, but they have for many reasons--lack of resources 
and frankly the security environment in Iraq not meeting their 
minimum standards--this has been a mission that the Pentagon 
and our military has been executing since we invaded Iraq in 
2003.
    Clearly, the Jones report, the independent commission that 
came out last year, had a scathing indictment on the ministry 
of interior, basically saying that it was riddled, that it was 
a sectarian fight, that if you went up the elevator over the 
five- or six-story building you had to be careful if you were a 
Sunni or a Shia what floor you got off on.
    I am not sure that that has improved a lot, but it doesn't 
bode well for the kind of cohesion and training that we would 
expect for a constabulary force which is part of the overall 
security blanket that we need. We need, obviously, military. We 
need border security. We need customs people. But we need 
people that are going to adjudicate normal little things that 
happen in communities. Since the Iraqi government fell, clearly 
all the prisons were emptied. Local law enforcement 
disappeared, so that is a big part of the security problem.
    I have introduced a bill that would free our troops to go 
back to their normal duties as warfighters and put the State 
Department back in charge of building a constabulary force. I 
have already told you two of the problems. One is resources, 
and two is the security in Iraq doesn't meet the minimum 
standards of the State Department and they don't want to send 
people in to do that job. I have met with General Paxton. I 
have met with Assistant Secretary David Johnson about coming up 
with a transition plan.
    I would just like to have your ideas, both you General 
Dubik and Mr. Straub, on whether you think that that is 
something that we could accomplish in the mid-term or short-
term. And where do you actually place the emphasis on police 
training? And is there good news about the department of 
interior? I know that we have academies like the Kabbalah 
Academy, which I think has some good news, too. So if you could 
just chat a little bit about that and give us an assessment of 
whether you think the State Department can take this mission 
anytime soon, I would appreciate it.
    General Dubik. Yes, ma'am. The first part of the question 
on the status of the ministry of interior, the description of 
the Jones Commission in the last summer of the ministry of 
interior building was accurate. It would be completely 
inaccurate today. I personally have had several conferences 
held in the ministry of interior building. We have had press 
conferences there. We have had multi-national force conferences 
with General Petraeus presiding.
    The air of the ministry is simply different one year later. 
The numbers of armed guards and all that stuff that he 
described are gone. The upgrades of the building at Iraqi 
expense are significant. The physical appearance is much 
different than it was a year ago. The physical appearance is 
reflective of a significant change in the minister of interior. 
In 2007 to the present, I think he relieved 33 brigadier 
generals and 8 major generals, and 130-some colonels and 
lieutenant colonels or equivalents.
    He has been on a clean sweep that he understands is going 
to have to go on for a good while longer, but he is on a very 
important sweep of the ministry of interior on their 
proficiency and behavior. He has adopted his own strategic 
planning seminar. He has adopted his own semiannual and 
quarterly business reviews of his sectors. He is decentralizing 
many of his decisions.
    Ms. Tauscher. General, I understand that there is now a 
major change. I take your word for it, but I am running out of 
time. You didn't get to my specific question. Can the State 
Department take his mission over?
    General Dubik. Yes, ma'am. On the other part in terms of 
the State Department assuming responsibility, I think this is 
desirable, but for several other reasons besides those you 
stated, I think we are not quite there yet. Personally, I would 
like to see the State Department assign to MNSTC-I now 7, 8, 9, 
12 officers that act as deputies within the ministry of 
interior and police forces so they start building the capacity 
so as we get closer to the security situation and budget 
situation, and it is no longer counterinsurgency policing, but 
community policing, they can assume responsibility and they 
have an experience base to do that. We would welcome those 
assignments. I have sent a letter to the State Department 
asking for that about nine months ago.
    Ms. Tauscher. About nine months ago? Could we have a copy 
of that letter please?
    General Dubik. I can get them to you. Yes.
    [The information referred to can be found in the Appendix 
on page 57.]
    Ms. Tauscher. Thank you very much.
    Mr. Spratt. Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here.
    Congratulations, General, on a terrific career and a great 
job in your assignment in Iraq. It is nice to have your family 
here. You may not yet be celebrating the end of a long career, 
but I suspect that they are. I would assure you that there is 
life after retirement. I might not recommend politics, but 
there is life after military retirement.
    I think you are to be commended, as all of our forces, our 
young men and women have done a great job. The security 
situation in Iraq is clearly improved. You said that in your 
testimony and we have heard it in every report. Mr. Conaway 
talked about the move toward bringing in private companies to 
develop oil resources in a way that we would not have 
considered a year or two ago. Remarkable successes, and we are 
all thrilled to see the drawdown in the number of American 
forces.
    I think you reassured us in your testimony that your 
expectation is that we would continue to see U.S. forces draw 
down. Perhaps you couldn't put an X on the calendar that the 
chairman was asking for, but I believe I heard you say it was 
your expectation that we would continue to draw down. We are 
seeing the Iraqi forces taking responsibility for their own 
security in province after province, about nine so far, and 
more to come--all terrific stuff.
    I want to pick up where Mrs. Tauscher was, on the 
differences between the Iraqi army forces, the ministry of 
defense forces, and the ministry of interior forces. As she 
pointed out, General Jones in his testimony and in his report 
was I would say harshly critical of the ministry of interior 
and the state of the police forces. There was some confusion 
over national police forces, local police forces, constabulary, 
and so forth.
    So could you pick up on that a little bit? We know that the 
quality of some of the Iraqi army forces, their 
counterterrorism forces for example, are just superb. I am sure 
that some of the army forces are. But there has been an 
unevenness.
    So either in the ministry of defense or ministry of 
interior, could you comment on that unevenness, but 
particularly in the police forces and how they are developing 
in their ability, with the corruption and some of the problems 
that you have addressed already, the quality of the building, 
but in their abilities.
    General Dubik. I will separate and talk first about the 
Iraqi police, which are local police, and then the national 
police. On the local police side, the better security situation 
has improved policing. One of the difficulties during the heavy 
violence period, with the proficiency of local police, had been 
the intimidation of their families. Local police live in the 
local area. When whatever type of insurgent was operating, when 
they could hold hostage policemen's families, policemen didn't 
perform, as you would expect. You saw what they had done.
    As military forces swept through and eliminated that 
intimidation, the police forces then were much more capable of 
performing. Minister Bilani had fired quite a few policemen who 
didn't perform, and replaced them with minimally trained 
policemen, with 80 hours, which is not much, but now has gone 
back and begun a program of aggressive retraining of local 
police so that all local policemen will get the full 400 hours 
of training that we all know they want.
    One of the professional arguments that we had with the 
Jones Commission was how to balance getting a satisfactory 
policeman out on the street once the security situation was 
better, versus waiting to get a fully formed policeman. We had 
a difference of opinion with that commission.
    They thought that we should delay fielding policemen until 
they were all completely fully trained. Our understanding was 
that we couldn't wait that long because we had the war to win, 
so we would put out a minimum-trained policeman and then come 
back and re-train. Those are both legitimate perspectives. In 
general, the Iraqi police are performing much better across the 
country now that levels of violence are down, and we are able 
to go back and begin the re-training period.
    On the national police, the minister of interior took the 
Jones Commission report to heart and did his own study, his own 
after-action review, so to speak, and analysis, and accelerated 
reformation of the national police, starting with the change-
out of the leadership, finishing then with the first phase of 
their re-training.
    They are now in the second phase of their re-training, 
using the Italian Carabinieri to conduct the leadership 
training for each battalion in the national police. That has 
been hugely successful. We have four done. The minister of 
interior would like to double that now, rather than do one 
every eight weeks. He would like to do two every eight weeks. 
The Italian Carabinieri are analyzing whether or not they can 
support that and under what conditions. We think that that will 
work out over the next few months.
    So the proficiency of the national police has also grown. 
They have moved to Basra and were welcomed by the citizens of 
Basra in their operations. They moved then to Mosul, which is a 
much different ethnic composition of the citizenry in Mosul, 
and were well-accepted in Mosul. Now, they are in Amarah and 
well-accepted in Amarah. So we have seen just a growth in 
proficiency and acceptability of the national police and 
regular police.
    Mr. Kline. Thank you, general.
    I am sorry, Mr. Chairman. I went past my time.
    Thank you very much, general.
    Mr. Spratt. Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    General Dubik, it is good to see you. It was a year ago 
that we were there. It really is hard to describe the different 
level of positive comments that you have. I really appreciate 
that.
    I wondered, in continuing with some of the discussion 
already, one of the issues that we know repeatedly over the 
last number of years is asking the question, what will turn the 
situation around? I think a lot of the responses were that when 
the Iraqi people begin to have confidence in their government. 
How do you assess the level of legitimacy for the Iraqi 
security forces on the part of the Iraqi people? Do you have a 
position from which you can actually assess that? What would 
you like to tell us about that?
    General Dubik. Thank you, ma'am. I do have lots of positive 
to say, and I am glad that I also have been given the 
opportunity to talk about the areas that still need 
development. The confidence in Iraqi security forces has grown 
every month, both military and police, since November.
    There are a series of polls done by a variety of 
organizations inside Iraq that indicate confidence of citizens 
in their security forces. There are questions like: Do you 
believe the army in your area is sectarian? Do you have 
confidence in the police of your area? Do you believe that the 
army or the police or national police are corrupt?
    It is questions like that. In each case, I believe all six 
questions--three about the army, three about the police--are in 
the above 50 percent positive category and have grown every 
month again since November. Certainly, we would like them to 
get up in the 60's and 70's and 80's, but we are very happy 
with the direction they are going, and the relatively uniform 
across-the-board growing confidence.
    Mrs. Davis of California. So no matter what community? I 
think there have certainly been concerns about whether you call 
it ethnic cleansing, but that that is an issue.
    General Dubik. Yes. There are still [INAUDIBLE]. Yes, 
ma'am. There are still [INAUDIBLE] where policemen or army guys 
are involved with sectarian behavior. Those are arrested and 
pulled off the street when they are investigated, but in 
general in a positive direction.
    Mrs. Davis of California. May I just clarify for a moment. 
You mentioned in looking at the internal security versus 
external security, the ability of the Iraqis to take on a 
foreign force. The defense minister when he was here I think 
was referring to quite a number of years beyond 2012. When you 
said 2009 to 2012, is that internal security that he was 
talking about?
    General Dubik. Yes, ma'am.
    Mrs. Davis of California. You also referenced the air force 
and obviously the navy in terms of external security supports 
and enablers. What would you assess to be kind of a ballpark 
figure in terms of the external security issue?
    General Dubik. The minister of defense said 2018, and that 
is the vision that he has.
    Mrs. Davis of California. In 2018?
    General Dubik. In 2018, but that is his vision. There are 
so many decisions yet not made that would have to be made to 
buy the right aircraft, to buy the right air defense systems, 
to improve the navy, to purchase additional equipment for the 
army, that I wouldn't even begin to guess whether 2018 is 
correct. These are major purchases that will have to be decided 
upon in the period between now and 2015 to start getting some 
of this equipment. None of those decisions have been made. So I 
think his vision is still yet an aspiration more than anything 
else.
    Mrs. Davis of California. Thank you. I appreciate that.
    Just when we think in terms of the enemy today, how would 
you assess Iraq's knowledge of the elements that they are 
fighting today? What kind of a handle do they have on that?
    General Dubik. I think they have a very good understanding 
of the enemies that they face, whether those are the residual 
al Qaeda operators, other insurgents associated with al Qaeda, 
but internal to Iraq, criminal militias or organized crime.
    Mrs. Davis of California. Where would they put the Iranian 
militia in that?
    General Dubik. I would say that they are influencers in the 
criminal militias. I think they very much understand who is 
doing what to whom inside their country.
    Mrs. Davis of California. And the influence of the 
Provincial Reconstruction Teams (PRTs), I must quickly ask you 
that.
    General Dubik. The PRTs, again thanks for your support and 
continuing interest, are all fully manned now and are out and 
having a tremendous positive impact in each of the provinces. 
We continue now to be in the replacement mode, which is a good 
mode to be in. Now, we are not searching to fill or searching 
to replace as people's tours end up.
    Mrs. Davis of California. Thank you.
    Thank you, Mr. Chairman.
    Mr. Spratt. Dr. Gingrey.
    Dr. Gingrey. Thank you, Mr. Chairman.
    General Dubik, I want to thank you and your family for your 
distinguished career and your service to our country--the 
ultimate definition of ``jointness''--and we appreciate all 
that you have done. It has to be a good feeling to be in the 
position that you have been in in the past year. You are 
probably the fourth person in charge of the transition of the 
security forces in Iraq, and the cumulative effort of all of 
you is to be commended. I especially want to commend you for 
your service over the last year in that regard.
    I want to ask you about this issue concerning a date 
certain for withdrawing our forces. Apparently, Prime Minister 
Maliki or maybe the minister of defense of Iraq made a 
statement recently regarding the status of forces agreement 
(SOFA), which is an ongoing negotiation, and that it would 
include a timeline for withdrawal of our troops.
    Some of my colleagues on this committee, some of the 
Democratic majority, have raised that question today. Some of 
the talking heads on CNN have raised that question as well and 
implied that, aha, we were right all along to have a date 
certain and to vote on this a number of times over the last 
couple of years. Fortunately, we rejected that vote.
    Would you agree with me that it is different for the 
government of Iraq to ask us to have a date certain to leave, a 
big difference in that, and the Members of Congress to demand 
that our Commander in Chief and our combatant commanders 
withdraw our troops at a date certain and put funding at risk 
in regard to that?
    I want you to answer that question if you can, because I 
know that I have heard, and I am sure you would agree, and Mr. 
Straub would agree, that the President has said on a number of 
occasions, and the Secretary of Defense has said on a number of 
occasions, that we will stay until the job is done, but if the 
government of Iraq wants us to leave, we will leave. If they 
want us to leave tomorrow, we will leave tomorrow. I would like 
for you to comment on that, if you would.
    General Dubik. Well, sir, if I could just use a few seconds 
to say thank you for acknowledging my family. My family is a 
joint family. My wife is a retired senior intelligence officer 
in the Central Intelligence Agency (CIA). My older daughter had 
been in the Army as an intelligence officer herself. My younger 
daughter, Katie, at the other end of the spectrum, was a Peace 
Corps volunteer in Thailand. So we cover the whole spectrum, I 
think, of peace operations.
    On the policy side, sir, you know I cannot comment on that. 
The ongoing negotiations are just that--negotiations. I don't 
know for sure what is in the mind of Dr. Rubahi or the prime 
minister in talking about timetables, how precise or how rough 
those are.
    I will say, though, my professional military advice remains 
as it has been, that precise, firm, fixed timetables are less 
helpful than periodic assessments and condition-based reviews. 
Part of the conditions are certainly security, but also the 
capability of Iraqi security forces. In those, we have shared 
aspirations with Iraqis and the coalition forces. We do want 
more self-reliance on the Iraqi security forces. We do want to 
get to a position where our presence is unnecessary. We both 
have a desire to fully depart.
    So my personal, again professional military advice, is to 
let those aspirations play out and let the conditions speak for 
themselves and let things go as fast or as quickly as the 
conditions will allow, and let the two sovereign governments 
decide on what policies we want to pursue.
    Dr. Gingrey. General, I thank you for that. My time is 
about to expire.
    I wanted to ask Mr. Straub a different question in the 
remaining few seconds. The ranking member, Mr. Hunter, at the 
outset, was asking the question about turning over equipment to 
the Iraqi government. We were talking about up-armored Humvees. 
I did a little quick math, and if we gave them 8,500 up-armored 
Humvees at $100,000 apiece, that is $850 million worth of 
equipment.
    Mr. Straub, do you think that the Secretary of Defense or 
the combatant commanders should be making that decision of 
giving away money that the Congress has appropriated to buy 
this equipment? Shouldn't that come back to the Congress? If 
the chairman would allow you to respond to that, shouldn't we 
have some input into how that equipment is transferred and what 
we get in the way of reimbursement for that equipment?
    Mr. Straub. Sir, I am just going to have to get the 
committee the facts on that decision. I am not sure of the 
numbers that you quoted for the costs to the United States. But 
I can assure you that I am not aware of any plan, and I don't 
think there is any, to provide any equipment that is in Iraq 
now to the Iraqis that our services want to have returned, 
addressing Mr. Hunter's point about shorting someone in the 
U.S. forces for the benefit of the Iraqi forces.
    I am going to just have to get you the additional facts on 
the Humvee transfer--8,500, that is the total number, but only 
about 1,000 have been transferred thus far.
    [The information referred to can be found in the Appendix 
on page 65.]
    Mr. Spratt. Mr. Sestak.
    Mr. Sestak. General, could I follow up on the question 
about a date certain, from my colleague from Georgia? Would you 
comment upon how well we are prepared to defend our 28,000 
troops in South Korea?
    General Dubik. Sir, I haven't been to South Korea in----
    Mr. Sestak. All right. Could you comment upon how well we 
are doing in Afghanistan against al Qaeda, now that General 
Hayden says they have a safe haven in nearby Pakistan?
    General Dubik. Sir, I have been focusing on Iraq.
    Mr. Sestak. Would it be fair to say that your comments on a 
date certain only had to do with Iraq, and that others may see 
the date certain as helping us address national security issues 
elsewhere in the world? So that while your input is helpful for 
us on a date certain with regard to Iraq, and specifically what 
you were responsible for--training and mentoring Iraq's 
forces--that a larger view of a date certain on America's 
national security might come out with a different answer?
    General Dubik. Absolutely.
    Mr. Sestak. Thank you.
    I wanted to ask you, you commented how well your troops, 
the Iraqi troops, which you have done a wonderful job mentoring 
and training, have done, and without a question there is 
improvement. What was the impact upon Basra by Iran in helping 
to decrease the violence there once it erupted? Because 
obviously that had an impact and you had to make an assessment 
upon it.
    General Dubik. It was one fact bearing on the problem. With 
all military operations, diplomacy occurs simultaneously with 
combat operations.
    Mr. Sestak. Did you consider it inconsequential or 
consequential?
    General Dubik. It was consequential, but only one of many 
factors.
    Mr. Sestak. How can we better, Mr. Secretary, address this 
issue if Iran has a positive influence, since it helped 
decrease violence? How can we better go about bringing them in 
to helping us do more of that throughout the country?
    Mr. Straub. Sir, they of course preceded their possibly 
positive influence in Basra with a negative influence by 
probably being the source of the weaponry, munitions, and 
training of the dissident militias.
    Mr. Sestak. Those, if I might interrupt, are very similar 
to how the Soviet Union provided North Vietnam with arms 
against us in the Vietnam War. I am not interested in the past. 
All I am interested in is the positive influence and how to 
bring that about more in Iraq.
    Mr. Straub. There is no question that as neighbors, as 
countries with a great deal in common in terms of religion and 
heritage, that Iran and Iraq could have a very positive 
relationship with each other. In fact, that relationship----
    Mr. Sestak. Should we be doing more vis-a-vis 
diplomatically with Iran to bring that about?
    Mr. Straub. Sir, I think that is mainly a function for the 
Iraqi government, to demand positive behavior from Iran and to 
minimize the negative behavior. I believe the Iraqi government 
has taken that up with the Iranians.
    Mr. Sestak. General, of the 600,000 to 650,000 troops that 
I gather, if I remember correctly, the interior department, the 
ministry of defense, and our own Army's assessment, was that 
the number needed for both internal and external threats?
    General Dubik. No, sir. That was required for 
counterinsurgency forces at levels of violence that we saw in 
mid-2007. Like all security assessments, there has to be an 
ongoing assessment, given the levels of threat as they go up 
and down. If and when the insurgency ends, there will have to 
be another assessment of whether or not that number is adequate 
for external security.
    Mr. Sestak. And the tools needed.
    General Dubik. And the tools needed, sir.
    Mr. Sestak. The last question I had is--well, I had two, 
but I don't think I will have time--we had a witness here about 
a year ago who said that it is not so much an issue of the 
training of the Iraqis, it was more an issue, he said, of their 
loyalty and willingness to fight. Set aside the willingness to 
fight, you spoke on that a bit. How about their loyalty, when 
all is said and done?
    Another witness from the intelligence said when asked where 
would you place your individuals, where would you embed our 
trainers, he said it is an art, not a skill, because we don't 
know really about their loyalties ultimately. How do you assess 
that comment?
    General Dubik. Well, as the government has gotten stronger, 
that itself is an incentive to be loyal to that government. I 
think we have seen a huge shift in the last 15 or 16 months in 
the strength of the Iraqi government, in their legitimacy as 
seen from the eyes of their citizens. That itself, again, is a 
positive contribution to the security forces.
    They have a government to be loyal to. This government has 
taken on of their own volition, with their own forces, criminal 
militias on the Shi'ite side, to al Qaeda and Sunni insurgents 
on the other side. The Maliki government has been very forceful 
with all opposition to legitimate government. That has had a 
positive effect on gelling the security force itself.
    While loyalty is not something you can measure with litmus 
paper, it is certainly the case that forces from one part of 
the country, whether national police forces or army forces, 
have been willing to and have fought in every other part of the 
country regardless of sectarian makeup of the country.
    The Chairman [presiding]. I thank the gentleman very much.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Thank you both for being here.
    General Dubik, I never want to miss an opportunity to thank 
loyal soldiers of freedom like yourself. I believe in so many 
ways not only have you had to defeat terrorism on many fronts, 
but you have had to carry the Congress on your back as you 
went.
    Sometimes you have been undermined at home, and for any 
part that any us played in that, I would apologize on behalf of 
all of us, because I think you have been such an example of 
someone that loves what is behind them, more than that hate 
what is front of them, and that you have done this on the basis 
of trying to make a better world.
    So I don't want to put any words in your mouth here, 
because I know there are two kinds of people that predict the 
future: those who don't know and who don't know they don't 
know. So I think that what I would like to ask you is, are we 
making serious progress in Iraq? It is a fundamental question.
    The Chairman. Would the gentleman pause for a moment?
    I would ask the two ladies that are sitting in the staff 
section to move out of the staff section. No signs are 
permitted to be displayed. Would you please do that before Mr. 
Franks resumes his questioning? You are sitting in the staff 
seats. Thank you.
    [AUDIENCE OFF MIKE]
    The Chairman. You may sit in the non-staff seats.
    Mr. Franks, proceed.
    Mr. Franks. Thank you, Mr. Chairman.
    General, I know it is a subjective question. I know it is 
pretty broad. But do you think in terms of winning peace in 
Iraq that we are gaining? Are we gaining in suppressing the 
insurgents and trying to bring about stability in that region?
    General Dubik. Yes, sir. I think we have made significant 
progress on the security front in the past 15 months. It is 
empirically verifiable, and it is a feeling that you get when 
you travel around, a feeling from fellow Iraqis. That said, it 
is reversible, as I said in my opening statement. There is 
nothing guaranteed. We are not on any kind of automatic pilot. 
It is no time to declare full victory.
    Mr. Franks. Right. You know, the road to success is always 
under construction, isn't it, but sometimes it is passable. I 
guess the next question I would ask you is: Do you, again 
understanding that you are not prescient in terms of seeing the 
future, see a time when Iraq will be able to be a stable 
democratic government that will be able to defend themselves at 
least nominally against terrorism? At some point in the future, 
do you see that time coming?
    General Dubik. I see that as entirely possible. Yes, sir.
    Mr. Franks. Do you have concerns related to the weapons 
that Iran is giving to insurgents in Iraq? What impact is that 
having on the war? What is your perspective there as far as the 
explosive-formed penetrators and things like that that Iran is 
bringing in, or at least putting in the hands of insurgents in 
Iraq?
    General Dubik. Those weapons have been very destructive, 
and have caused a significant number of casualties in coalition 
forces, as well as Iraqi security forces, as well as innocent 
civilians that have been in the area of their attacks. 
Sometimes, those trained in those weapons are used specifically 
to target civilians.
    Mr. Franks. General, I know that all of us struggle with 
the situation in Iraq. We struggle with any kind of 
circumstance where war takes place. But I believe, at least 
some of us believe, that the dynamic in Iraq was really between 
two different directions. If Iraq had fallen to terrorists, if 
America had withdrawn precipitously and left it to its own 
ways, I am afraid that terrorism and the ideology that supports 
it could have been supercharged in the region, and they could 
have gained a great base of operation from which to launch 
terrorist attacks across the world, and that perhaps could have 
brought nuclear jihad to this country and to the world.
    It looks as if we may be going in a different direction, 
where Iraq may become a free nation and help turn the Middle 
East into a more hopeful region and turn the entire direction 
of humanity in a more hopeful direction. For your part in that, 
sir, I want to salute you with all my heart and thank you for 
your good work.
    I yield back, Mr. Chairman.
    The Chairman. Mr. Loebsack is next, please.
    Mr. Loebsack. Thank you, Mr. Chairman.
    Thank you, general and Mr. Straub, for being here today. 
Thank you for your service.
    Early on, general, you said that there are pockets of 
sectarianism in both the military and the police. I know you 
have been speaking to that issue a lot this morning. I am sorry 
to have to repeat some of that, but I think it is really 
important that we do so. Can you elaborate initially on what 
you mean by ``pockets'' of sectarianism?
    General Dubik. I mean, sir, that we still run into some 
leaders who are acting more in the sectarian way than in a 
completely professional way, that when that occurs and we find 
out about it, investigations occur and that person is either 
removed or retired or replaced, and in some cases arrested.
    Mr. Loebsack. Is that principally in the military, or is it 
in the police, or is it in both?
    General Dubik. It is in both. In previous times, during my 
tour in Iraq, it had been primarily police, but that is also 
reducing very significantly. Often, what we called sectarian 
behavior was merely behavior resulting from intimidation, as I 
talked to Representative Kline.
    In those areas where the insurgent influence was very 
strong and the Iraqi security force or coalition presence was 
not strong, they intimidated police to behave in a way that 
matched the insurgent behavior. Now that the security situation 
is better, that kind of behavior has reduced significantly, but 
there are still some places in Iraq that that is occurring.
    Mr. Loebsack. Who controls the military and who controls 
the police? Is it Shi'ites who control both those 
organizations?
    General Dubik. No. It is the government that controls the 
police and the army. The police force is made up of local 
residents, and they are either mixed or not mixed depending on 
the community from which they are recruited. The military is 
different, as is the national police. These are recruited from 
a broad base of the nation and reflective of the sectarian mix 
of the nation.
    Mr. Loebsack. But in Baghdad, is it not the case that there 
has been an ethnic cleansing of sorts that has happened over 
time in Baghdad? Therefore, is it not the case that in 
particular parts of Baghdad perhaps Shi'ite control the police 
and in other parts, perhaps Sunni? Is that fair to say?
    General Dubik. I don't think that is fair to say. I think 
it is fair to say that communities in Baghdad have shifted in 
their sectarian, as you describe, and the police reflect the 
current community that is there. Some communities are mixed and 
some communities are not. The police in those communities are 
recruited to reflect that mix.
    Mr. Loebsack. Can I shift for a second over to Anbar 
Province because as you are very aware, throughout Iraqi 
history, at least recent history, it has been a tribal society 
in many ways. Depending on who the colonial power was, 
sometimes the tribes had more power than at other times.
    Certainly with the awakening and the Sons of Iraq movement, 
clearly those folks have served our interests. Many of them 
obviously were initially aligned with al Qaeda, then they 
turned against al Qaeda, and we all know that story and how 
that happened.
    There are some who are concerned that as the Iraqis assume 
more control, which is a good thing because we can leave sooner 
rather than later as that happens, that tribal loyalties might 
begin to reassert themselves again. Do you have a concern about 
that? And how do you see that going? Not necessarily that you 
have a crystal ball, but there is a concern, is there not, that 
some of those tribal loyalties may reassert themselves?
    General Dubik. Yes, sir. When the awakening began and the 
Sons of Iraq program began, it was rightful to be concerned 
about this turn. But since then, there has been an awful lot of 
tribal engagement by the government of Iraq through the 
governor of Al Anbar and other provinces, I might add, in 
helping link the tribes to the legitimate government, both at 
provincial level and national level.
    How that will turn out in the future, you don't know, but 
there is a clear recognition from my perspective both at the 
provincial and the national level, the tribal engagements and 
tying the tribes to the legitimate government is something that 
the Maliki government sees as necessary and important.
    Mr. Loebsack. Okay. Thank you very much, general.
    The Chairman. Thank you.
    Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman.
    Thank you, General, for your service. I wish you well in 
the future. I also want to thank your wife and your daughter 
and your entire family for their support and sacrifice. I think 
sometimes Americans don't realize just how much support and 
sacrifice is required of the family to enable you to do your 
job. So we thank you, the entire family, for your service to 
the country.
    A third question I was going to ask, I will follow up on 
what my colleague from Iowa was talking about in Al Anbar 
Province. I read a story, I think it was in The Washington Post 
on Sunday or Saturday, I don't remember when, how very 
effective the police commander in Al Anbar is, who has been 
fired by the governors of Al Anbar, but he has actually been 
appointed by the national government. Can you talk about that? 
In that situation, where do we come in advising? It seems to me 
it is very effective, by all reports, with an effective police 
commander out there.
    General Dubik. Well, if I could paint the--this is the 
provincial director of police for Al Anbar, who was appointed 
by the minister of interior, which is the correct methodology. 
The local governor produces three candidates and the minister 
of interior selects from among those candidates. There is a 
tug-and-pull between the governor and the central government.
    This is I think a very good example of how the process in 
Iraq is moving into a political argument. A year ago, this 
wouldn't be a political argument. Guns would have been drawn 
and we would have figured it out by the numbers of bodies who 
was going to be in charge.
    But this is a very good example of the government of Iraq 
trying to figure out how to act centralized and decentralized. 
Powers given to the governor and powers given to the central 
government, sharing of powers and the checks and balances that 
we are all familiar with because of the long history in the 
United States are still very much fledging in Iraq. This is an 
example of trying to figure that out. I believe that they 
ultimately will come to the right accommodation, that whatever 
final decision is made will be made in the spirit of compromise 
between the province and the government.
    Mr. Shuster. That is good to hear. In my several trips to 
both Afghanistan and Iraq, the one thing in training that our 
folks would talk about, in Iraq particularly, was the lack of 
an NCO corps. Can you report on how is that going? I know it is 
a pillar of any military to have a strong NCO corps. So can you 
talk about that?
    General Dubik. Yes, sir. There was not a strong NCO corps 
in Iraq during the Saddam period, and a little bit before. 
There was before that, from the British influence, but that 
went out of use for quite a few years. The NCO corps has grown 
in the last couple of years, but mostly in the last year 
significantly, mostly at the junior ranks.
    The Iraqis have understood that they need an NCO corps. 
They developed an NCO education system, starting with corporals 
to sergeants to platoon sergeants to first sergeants. All that 
instruction is in place. All that has begun. They take the top 
10 percent of their graduates from basic training and put them 
into corporal's course. That number has grown in every five-
week cycle of the corporal's course. They are almost at 70 
percent fill in the aggregate.
    Mr. Shuster. At 70 percent?
    General Dubik. Almost, about 68 or 69 percent in the 
aggregate for their NCO corps, but the distribution of those 
NCOs lies mostly at the lower end, not the higher end, so there 
are more junior-grade NCOs than senior-grade, and that 
distribution will not be fixed for another good number of 
years, probably 10 years.
    Mr. Shuster. And a final question, as I see I have very 
limited time. We walked about the Shi'ites and the Sunnis, but 
didn't mention the Kurds. How are they fitting and integrating 
into the overall military police force?
    General Dubik. Well, there are two sets of discussions 
going on now with the Kurds, first in the army is how to bring 
on two of the Kurdish regional government divisions into the 
Iraqi security forces. That will not occur until they are fully 
integrated into the government of Iraq under the Iraqi minister 
of defense's control. So that discussion is going on.
    With the ministerial forces, some of the special police in 
the Kurdistan regional government will be incorporated into the 
Iraqi national police. The discussion is now how many, what 
frequency, and under what conditions. Mostly the conditions 
will have to do with language proficiency. So the discussions 
are ongoing. I thought that we might have had a decision on 
those already. We have not.
    Mr. Shuster. Thank you very much.
    The Chairman. Thank you, Mr. Shuster.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    I would like to thank you for your many years of service. 
It has made a difference for this country and we certainly 
appreciate it. As a former military spouse, I thank your family 
as well. When one is in, they are all in. We know that, so 
thank you.
    The question I have to ask is really sort of a potpourri of 
questions here. I was in Taji this spring, and I walked in the 
marketplace. I have to tell you that we were told that was 
probably the most dangerous thing we were going to do. There 
were extraordinary steps that they had to take in order for us 
to be there.
    While I was very grateful to our military that took such 
good care of us there, you know, I wonder how this is playing 
into the reports that we are hearing that things are calmer, 
things are better? If it were, how come we had to go to so many 
extraordinary procedures just to walk down a very short little 
marketplace?
    General Dubik. Well, mostly it is who you are, ma'am. Those 
extraordinary protective measures are not taken for everyone.
    Ms. Shea-Porter. Not everybody is there. That is the whole 
point. I didn't see anybody except us.
    General Dubik. All I can say is we don't want anything to 
happen to you while you are visiting.
    Ms. Shea-Porter. It just didn't feel like----
    General Dubik. It is hard. I have to admit to you, I have 
the same kind of experience. When I walk down the street, I 
don't walk alone. At the same time, the minister of interior 
does drive around alone with a very small group. More and more 
of the policemen are unarmed on the street.
    The traffic police direct traffic without weapons in many 
parts of the country. Though still not dominant, it is 
growingly the case that people come to work in their uniforms. 
It is also the case that more and more markets are open. As you 
drive down a street now where there had been last year 5 
markets, now there are 300.
    Ms. Shea-Porter. I certainly want it to go well. Like I 
said, I am grateful for it. But the other thing is that I was 
concerned that we had Ugandans guarding the gates. I wondered 
why we don't have Iraqis guarding the gates.
    General Dubik. Iraqis do guard some gates where we conduct 
meetings, where we have our ministries. They do guard some 
forward operating base (FOB) gates.
    Ms. Shea-Porter. Are you comfortable with contractors from 
Uganda guarding the gates? Or do you think we should be at the 
point where we actually have the Iraqis, who should be 
interested in protecting us, guarding the gates?
    General Dubik. I guess I am a little hesitant. Who guards 
what gates is very much a mixed affair. Some are contractors, 
some are Iraqis, and some are U.S. soldiers or Marines. I have 
driven through any number of locations that were solely guarded 
by Iraqis and any number that were mixed with Iraqis and 
contractors, or coalition force and contractors.
    Ms. Shea-Porter. Okay. The other question I had, I just 
wanted to read to you, and I know you already saw it in The 
Washington Post, but this does concern me. Last summer, half of 
the Iraqi parliament asked us to leave. President Bush said in 
May 2007, said if they were to say leave, we would leave. And 
then obviously we have them saying they want us to go, but we 
are not ready to leave.
    I am quoting from the Post right now that U.S. officials 
said the remarks were aimed at local and regional audiences and 
do not reflect fundamental disagreements with the Bush 
Administration. Do we have a problem with what Iraq leaders are 
saying to regional audiences and what they are saying to us? Is 
there a difference there?
    General Dubik. I will let Mr. Straub answer that.
    Mr. Straub. If I could take that, I think it is more of a 
national policy question.
    Ms. Shea-Porter. Sure.
    Mr. Straub. We are in a negotiation, so a number of things 
are being said. We think that our concern about conditions for 
withdrawal, because for us it has always been a matter of 
conditions, rather than timetables, and the key condition 
there, of course, is the condition General Dubik has been 
working on, which is the readiness of the Iraqi forces and the 
size of the Iraqi forces.
    So I think the Iraqis, with these comments in the last 
couple of days about a timetable, are looking at a time that 
their forces will be ready. I don't think there is such a 
spread between us. We are very much focused on conditions. We 
are in a negotiation here, and so a wide variety of positions 
will be said.
    If I could say one more thing about the ability for the 
Iraqis to tell us to leave. We are under the United Nations 
Security Council (UNSC) resolution under which the Iraqis can 
voluntarily end the resolution at any time, and with that 
resolution end the basis of our presence.
    Ms. Shea-Porter. Okay. Thank you both.
    The Chairman. Thank you.
    Before I call on Mr. Wilson, Mr. Straub let me ask you, 
recently Prime Minister Maliki made the Iraqi special forces 
answerable directly to him, rather than to a minister, where 
they previously were made answerable to. Now, how do we ensure 
that these special forces are not used to target or harass 
political opponents?
    Mr. Straub. Sir, let me quickly respond to you, and then 
General Dubik may have some additional points, because I know 
he has looked at this issue in close detail. First of all, as 
you know, sir, we have embedded advisers with Iraqi special 
forces. In fact, they have been with Iraqi special forces 
longer than with any other organization. They go back to 2003.
    Second, I would say that there are some intervening 
organizations between the prime minister's office and the 
special forces units themselves. I will ask if General Dubik 
has any more comment on the possible misuse of the ISOF.
    General Dubik. Yes, sir. The Iraqi special operations 
forces brigade is subordinate to two other headquarters that 
intervene between the prime minister and the special forces. 
The first is the Counterterrorist Bureau, which is a ministry-
like entity. The Counterterrorist Bureau chief sits at the 
National Security Council meeting every week, the equivalent to 
other ministries, and over time may become a ministry. 
Subordinate to the Counterterrorist Bureau is a 
Counterterrorist Command, and that is the command of the Iraqi 
special operations brigade and soon-to-be-formed commando 
brigades.
    As targets get passed to the special operations forces 
brigade, they go first to the bureau and then to a special 
committee of inter-ministerial composition, and then passed 
from there to the Counterterrorist Command and special forces. 
So it is not a direct shot, prime minister to the special 
operations forces, but through a chain of command.
    The Chairman. And we have advisers in each unit. Is that 
correct?
    General Dubik. Yes, sir. That is correct.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    General Dubik, Mr. Secretary, thank you very much for being 
here.
    General, I want to join with everyone in thanking you for 
your 13 months of extraordinary service in Baghdad. It has 
truly made a difference. It has been terrific today to find out 
about your wife and daughters. What a family involvement this 
has been. I also want to commend you. Behind you, I recognize a 
number of your staff people who I visited in Baghdad in the 
nine visits that I have had there. We have extraordinary young 
people serving our country. I say this as a Member of Congress. 
I say this as a 31-year veteran of the Army Guard and Reserve.
    I also have another perspective. One of my sons was a 
doctor serving in the Navy under your command this year, and I 
just had faith in what you were doing and General Petraeus. You 
have certainly lived up as a parent to what we want for the 
young people serving our country. In fact, he actually followed 
an older brother who served for a year in Iraq with the field 
artillery. So our family truly has seen the extraordinary 
success that has occurred.
    As I visit in Iraq, I get to visit with the junior officers 
and enlisted personnel from my home state. Every time, I am so 
impressed to see young people understand that the best way to 
protect American families at home is to defeat the terrorists 
overseas.
    As we are looking at these issues, I have been particularly 
pleased, and I just can't hear enough, about the progress being 
made with the national police. I painfully remember being here 
and having the hearings where the only solution for the 
national police was their dissolution, start over again. But in 
fact, there has been a re-bluing effort, an effort to reform 
the police. Phase one is completed. Phase two has completed. We 
are not into phase three. Can you tell us again about the 
different phases and where we are?
    General Dubik. Yes, sir. Thank you very much for your 
complimentary comments on the soldiers and airmen and sailors 
and Marines and civilians serving in Iraq. On their behalf, 
thank you.
    The national police reform did have four phases. Actually, 
all four are going on at the same time. The first phase was 
assessment of leadership and removal of leaders that were not 
proficient. As I commented before, the minister changed both of 
the division commanders, 9 of the brigade commanders, 17 of his 
battalion commanders. Subsequent to the initial removal, he has 
removed one more brigade commander and several more battalion 
commanders. So this is a constant reassessment of leadership.
    Second is to provide collective training for every brigade. 
We had completed the initial sets of brigades in the fall, and 
now we are bringing them back for continuous training. So while 
we completed phase two, so to speak, by doing it once, the 
minister and the commanding general of the national police are 
unsatisfied with just doing it once, and they want to keep 
refreshing that training.
    Third is professional training in leadership by the Italian 
Carabinieri. We began this about seven months ago. We are on 
the fourth cycle. This has been very, very beneficial. The 
Carabinieri, by their very presence, have inspired the national 
police to become what they see the Carabinieri are. In addition 
to that, the skills and leadership training the Carabinieri 
have provided have now started to see their impact. The first 
battalion trained by the Carabinieri went into Basra and 
performed very, very well. We are going to try to expand that 
program.
    The last phase is regionalization, which again has begun, 
where the minister of interior and the commanding general of 
the national police desire to set the conditions for transition 
to rule of law, where when we get to the point that the 
military is no longer needed inside for security of Iraq, that 
local police, backed up by national police regionally 
stationed, will provide the security for an Iraq no longer in 
an insurgency. That process has begun by selecting the regions, 
and beginning to form a third national police division so that 
the three major regions can be identified, and slowly moving 
battalions in each province.
    Mr. Wilson. Well, it is a great success story.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    The gentleman from Connecticut, Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Thank you, general, and your family, for your sacrifice and 
commitment to our country.
    General, in your testimony, you concluded pretty much with 
a comment that our assistance may change in organization and 
size over the coming months or years, but some form of 
partnership and assistance consistent with strategic objectives 
is still necessary.
    The Los Angeles Times on July 2, just a few days ago, 
reported a fairly solidly sourced story that spy satellites of 
our country are being trained on the Iraqi army to follow their 
movements and their training facilities. Again, this was a 
front page story with lots of backup and confirmation from 
folks who have seen some of the slides from the satellites.
    This obviously raises a pretty large question about the 
nature of the relationship between a country that basically 
created the Iraqi army, as embedded as we have heard over and 
over again this morning, but still feels the need to use some 
of our most sophisticated spy technology to find out what they 
are doing. I was wondering if you could comment on that?
    General Dubik. I cannot comment on that. I didn't see the 
article and I don't know of the program. I don't know if Mr. 
Straub can.
    Mr. Straub. I have not seen it and couldn't comment on it 
if I had.
    Mr. Courtney. Well, again, this is not some sort of non-
mainstream news organization that is reporting on this. Perhaps 
you can follow up with our committee to get some sort of 
response to that. Certainly, I think the American people who 
are paying $12 billion a month for operations there would like 
to know why we feel the need to use some of our most valuable 
technology. There are clearly other things that we should be 
probably tracking in that region, but certainly the movements 
of our ally shouldn't be one of them.
    With that, Mr. Speaker, I would yield back.
    The Chairman. Thank you so much.
    I have one question, but I will call on my friend from 
California first. Mr. Duncan.
    Mr. Hunter. Thank you, Mr. Chairman.
    I think this has been a very fulsome hearing, gentlemen. 
Thank you for your testimony.
    Your overall take on the field-grade officer corps. One to 
10, where do you think they are at right now?
    General Dubik. The U.S. field-grade officer corps?
    Mr. Hunter. No, the Iraqi officer corps.
    General Dubik. I think that in the spread of officers, they 
are very proficient at the junior ranks. They are thin in the 
field-grade ranks, and they are overly heavy in the senior 
ranks.
    Mr. Hunter. Do you think that we have a good system, or 
that there has been a good system in terms of noticing 
meritorious service and moving the talented folks to the fore?
    General Dubik. I think in general, yes, sir, but like every 
system, I am sure that there are some deserving officers not 
being promoted. But in general, the move from lower ranks to 
more senior ranks will be a positive one.
    Mr. Hunter. Basra operation, if you gave it a 1 to 10, what 
would you give it? Where would you put the Iraqi forces in that 
operation?
    General Dubik. I think they did very well in the execution 
phase. I think they learned a lot about the need to do better 
planning and preparation. Then when you saw Mosul, Sadr City, 
and Amarah, that the planning and preparation was pretty 
impressive in each of those cases and they learned a lot from 
Basra.
    Mr. Hunter. The battalions, the 139 line battalions, you 
have obviously 4 special operations battalions that get a lot 
of work. But of the 139 line battalions, do you think there is 
a pretty good spread of responsibility in terms of operational 
assignments that test the capability of the battalions? Are 
they mixing them and moving them to a fairly large degree?
    General Dubik. Not all of them are moving, sir, but quite a 
few are moving from Al Anbar throughout the country, and moving 
from the 2d and 3d divisions, switching their operational areas 
from the 8th and 10th divisions in the center, down to the 
south and a little bit north. So they are moving quite a few of 
their forces around.
    Mr. Hunter. If you were going to describe this operation at 
this point, would you say that we are succeeding in Iraq?
    General Dubik. I would say we are succeeding in Iraq right 
now, that we have seized the initiative from the insurgents, 
but that success is not cemented in any guaranteed way just 
yet.
    Mr. Hunter. Okay.
    Thank you very much, Mr. Chairman. I think we have had an 
excellent hearing today.
    General, thank you. Thanks for your endurance.
    General Dubik. Thank you, sir.
    The Chairman. General, before I ask you the final question, 
let me again thank you for your service for some 37 years. You 
certainly end on a high note, and we thank again your two 
daughters and your wife for being with us today.
    You earlier said that you had asked the State Department 
for help in training the Iraqi police, and they were not 
forthcoming. Have you asked the State Department or any other 
agencies for any other help and (a) been turned down; or (b) 
been helped?
    General Dubik. No, sir, not specifically. The assignment 
that I requested from the Department of State was not directly 
in training of the police, but looking to the day when training 
of the police would no longer be a Department of Defense 
function, but a State function. I wanted to present an 
opportunity to begin training of State Department officials in 
understanding the situation in Iraq. That was the offer. They 
have not rejected it yet, but they haven't identified the----
    The Chairman. How long ago was that, General?
    General Dubik. This was about six months, maybe seven 
months ago. But I will get the letter, sir, to you.
    [The information referred to can be found in the Appendix 
on page 57.]
    The Chairman. That would be helpful. We have been very 
concerned on this committee about the interagency cooperation. 
If they did not want to do it, I think the best they could do 
would be to write you a letter and say not now or something to 
that effect.
    Listen, thank you very much, general. Mr. Straub, we thank 
you for being with us, too.
    The meeting is adjourned.
    [Whereupon, at 12:23 p.m., the committee was adjourned.]


=======================================================================




                            A P P E N D I X

                              July 9, 2008

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              July 9, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 45257B.001
    
    [GRAPHIC] [TIFF OMITTED] 45257B.002
    
    [GRAPHIC] [TIFF OMITTED] 45257B.003
    
    [GRAPHIC] [TIFF OMITTED] 45257B.004
    
    [GRAPHIC] [TIFF OMITTED] 45257B.005
    
    [GRAPHIC] [TIFF OMITTED] 45257B.006
    
    [GRAPHIC] [TIFF OMITTED] 45257B.007
    
    [GRAPHIC] [TIFF OMITTED] 45257B.008
    
    [GRAPHIC] [TIFF OMITTED] 45257B.009
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                              July 9, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 45257.010
    
    [GRAPHIC] [TIFF OMITTED] 45257.011
    
    [GRAPHIC] [TIFF OMITTED] 45257.012
    
    [GRAPHIC] [TIFF OMITTED] 45257.013
    
    [GRAPHIC] [TIFF OMITTED] 45257.014
    
    [GRAPHIC] [TIFF OMITTED] 45257.015
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              July 9, 2008

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY DR. SNYDER

    Mr. Straub. The Department of Defense has taken reduction of 
Foreign Military Sales (FMS) case processing times as a priority item, 
and the FMS Task Force, headed by Assistant Secretary of Defense 
Benkert, has significantly reduced those times. As of September 16, 
2008, our rolling five-month average for processing time of FMS cases 
from Letter of Offer and Acceptance (LOA) presentation to LOA signature 
has dropped to 54 days.
    The Congress has been extremely helpful in reducing the time 
required to process FMS cases. Committees have waived the standard 20 
day informal notification for all 18 notifications and have processed 
each formal notification within the 30 day requirement. Congressional 
flexibility regarding these priority FMS cases has been a key factor in 
reducing FMS case processing times and providing needed defense 
articles to the Iraqi Security Forces. These notifications are done in 
parallel with other procurement actions, resulting in a streamlined 
process.
    Our avenues to further improve the FMS process at present focus 
more on processes internal to the Government of Iraq and the 
interaction between DoD elements and the Iraqi Ministry of Defense. 
Nonetheless, there are two things Congress can do to further help. As 
stated in a November 14, 2007 letter from Deputy Secretary of Defense 
England and Deputy Secretary of State Negroponte, Congress might review 
the current notification thresholds in the Arms Export Control Act, 
which have not been updated since 1981 and have not kept pace with the 
increased costs of military equipment. Secondly, Congress might 
consider establishment of a Coalition Support Account, which would 
allow the U.S. military to more rapidly support the deployment and 
integration of Coalition partners when a rapid response is required. 
[See page 18.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY DR. GINGREY
    Mr. Straub. Neither the Department of Defense, the Services, nor 
the Combatant Commands are giving away money appropriated by Congress, 
nor are they giving away new equipment or equipment needed by U.S. 
forces to the Iraqi military. U.S. forces are in the process of 
refurbishing and transferring 8,500 HMMWVs that have been used 
extensively in Iraq. The vehicles would be costly to return to CONUS 
and no longer meet U.S. operational requirements. The Army and National 
Guard will replace the 8,500 HMMWVs with newer M-1151 HMMWVs that meet 
current U.S. operational requirements.
    The Department of the Army received the proceeds from the purchase 
of the HMMWVs. The cost of the new HMMWVs will be offset by avoiding 
the significant post-deployment costs to reset the older vehicles. The 
decision made by the Army to meet the Combatant Commander's request to 
sell the HMMWVs to Multi-National Security Transition Command-Iraq 
(MNSTC-I) was based on a business analysis of returning the vehicles to 
CONUS for overhaul ($1.5 billion) versus the cost of procuring new 
tactical vehicles ($1.8 billion), a difference of approximately $35K 
per vehicle.
    The $11K per vehicle purchase price is transferred to the 
Department of the Army for its use. A detailed analysis was conducted 
by OSD Comptroller and OSD AT&L to determine the fair market 
depreciated value based on the age and condition of the vehicles. Most 
of the vehicles were five to seven years old and used heavily in a war 
zone. The decision for making this transaction went through an 
extensive review process involving the Army, USCENTCOM, Joint Staff, 
and OSD to ensure the proper legal authorities were exercised. The 
purchase was in the best interest of the U.S. Army and best supported 
the mission to develop the capabilities of the Iraqi Security Forces.
    The HMMWVs have had a positive effect on Iraqi Army operations and 
have contributed to their improved performance throughout Iraq. [See 
page 27.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              July 9, 2008

=======================================================================

      
                   QUESTIONS SUBMITTED BY MS. SANCHEZ

    Ms. Sanchez. I am looking at the State Department's ``Iraq Weekly 
Status Update'' from June 25, 2008. According to this report, as of 
April 25, 2008, there were a total of 478,524 trained Iraqi Security 
forces. If you look back at the 9010 Report from December 2007, it 
stated that there were a total of 439,678 trained forces. This is an 
increase of 38,846 in trained forces, over the four months between 
December 2007 and April 2008. I understand that the end objective is to 
create a self-sufficient Iraqi Security Force that will be able to 
provide and maintain security in the region. Lt General Dubik and 
Deputy Assistant Secretary Straub, can you tell us: a. How many more 
forces need to be trained for the Iraqi Security Forces to be fully 
capable of maintaining security in the region? b. How much additional 
U.S. support will be required to achieve this goal? c. And what is the 
proposed timeline for the Iraqi Security Force to be self-sufficient 
and no longer need to rely on the Coalition?
    Mr. Straub. Between Coalition and Iraqi training efforts, a 
sufficient number of Iraqi soldiers, police, and other security forces 
must be produced to meet the force levels determined by the Government 
of Iraq as necessary to maintain security. U.S. and Iraqi studies have 
recommended an end-state trained force of between 601,000 and 646,000 
by 2010. The current force level is approximately 590,000. A U.S. role 
in training the units still forming and in developing the ISF ability 
to conduct its own training remains important. As the ISF become more 
proficient at training Iraqi soldiers and units, the Coalition 
requirement for training them will decrease.
    In answering sections (b) and (c), it may be better to look at unit 
training levels and percentage of assigned versus authorized personnel 
rather than cumulative total trained for insights on ISF effectiveness. 
Those measures reflect how many ISF have actually been trained and 
remain with their units. By those measures, U.S. support continues to 
be essential to building a fully self-sustaining ISF capable of 
independent counterinsurgency operations. The monetary component of 
U.S. support to training and equipping ISF is the Iraqi Security Forces 
Fund (ISFF). The FY09 request for ISFF is $2 billion. Subsequent 
requests, if any, will be significantly reduced.
    There is no measurable timetable at present for the ISF to be 
entirely independent of Coalition training and operational support. 
During 2007-2008, the ISF made significant gains in operational 
readiness and have taken the lead in an increasing number of provinces 
and operations. The assessment that the ISF are fully self-sufficient 
will be based on conditions rather than on a timetable. This will occur 
when unit training levels, ministerial capacity, logistics, and other 
key enablers are fully developed and functional.
    Ms. Sanchez. I am looking at the State Department's ``Iraq Weekly 
Status Update'' from June 25, 2008. According to this report, as of 
April 25, 2008, there were a total of 478,524 trained Iraqi Security 
forces. If you look back at the 9010 Report from December 2007, it 
stated that there were a total of 439,678 trained forces. This is an 
increase of 38,846 in trained forces, over the four months between 
December 2007 and April 2008. I understand that the end objective is to 
create a self-sufficient Iraqi Security Force that will be able to 
provide and maintain security in the region. Lt General Dubik and 
Deputy Assistant Secretary Straub, can you tell us: a. How many more 
forces need to be trained for the Iraqi Security Forces to be fully 
capable of maintaining security in the region? b. How much additional 
U.S. support will be required to achieve this goal? c. And what is the 
proposed timeline for the Iraqi Security Force to be self-sufficient 
and no longer need to rely on the Coalition?
    General Dubik. ISF assigned strength continues to grow, and is 
expected to reach just over 590,000 in September 2008. The original 
target strength for 2010 was 601,000 to 646,000. However, this estimate 
does not include additional growth based on the consolidation of other 
security force--e.g. Facilities Protection Services, Oil Police, and 
Dignitary Protection Services. The assimilation of these additional 
forces will occur from the end of this year until the Government of 
Iraq is satisfied with its command and control and support 
relationships for these additional forces. It is important to note that 
this is a force to provide security for Iraq . . . not the region, at 
large.
    Regarding additional U.S. support, that is a very broad and open-
ended question. MNSTC-I's role will be a) the generation of the 
remaining counterinsurgency force, b) development of key enablers and 
c) continued ministerial and institutional develop of key functional 
capabilities including force management and management systems, such as 
logistics. The timing table for Iraq reaching the end of the build of 
the counterinsurgency force is conditions-based. We believe it is 
feasible under current conditions to achieve the build for the initial 
projection of the counterinsurgency ground force by the end of 2009. 
This is the force we assess will, once enabled with logistics and other 
force management capability, allow the government of Iraq to sustain 
security within its borders.
    Ms. Sanchez. One of the major challenges I foresee is our inability 
to keep track of how many trained forces are on duty in the Iraqi 
Security Force. Currently, the Department of Defense does not ensure 
that forces that are trained and equipped by the Coalition actually 
stay on duty. Without this information the Coalition is at risk of 
wasting its resources. It is imperative that we are accountable for our 
equipment, personnel and other resources. a. How important does the 
Department of Defense believe it is to ensure that Coalition trained 
and equipped forces actually stay on duty? b. Why wasn't there a system 
in place from the very beginning to track how many Coalition trained 
forces stayed on duty? c. How is the Department of Defense addressing 
this situation? d. Has the Department started to develop a system for 
tracking trained, on-duty personnel?
    Mr. Straub. The Department believes that it is important for the 
Iraqi Security Forces (ISF) to retain its trained personnel and account 
for its equipment. Accordingly, MNSTC-I and other DoD elements with a 
role in training the ISF emphasize personnel and equipment 
accountability as a priority. The Iraqi military personnel system must 
deal with a steady outflow of personnel due to combat deaths, illness, 
expiration of terms of service, absence without leave, and other 
factors. In the early days of forming the ISF, moreover, dangerous 
security conditions resulted in a high loss rate for trained personnel.
    DoD has placed emphasis on tracking the capabilities of trained ISF 
units, as opposed to the retention of individual soldiers. While such 
retention is important, it is traditionally more a personnel 
administration than a training function and has not been tracked in 
equal detail. DoD has developed detailed measures of unit authorized 
and assigned strength, in addition to the total number of individual 
soldiers that have been trained. These readiness assessments, coupled 
with personnel accountability measures within the Iraqi Ministry of 
Defense, continue to mature and now provide greater fidelity on the 
number of trained ISF personnel still serving in active units as well 
as their collective mission readiness.
    Ms. Sanchez. One of the major challenges I foresee is our inability 
to keep track of how many trained forces are on duty in the Iraqi 
Security Force. Currently, the Department of Defense does not ensure 
that forces that are trained and equipped by the Coalition actually 
stay on duty. Without this information the Coalition is at risk of 
wasting its resources. It is imperative that we are accountable for our 
equipment, personnel and other resources. a. How important does the 
Department of Defense believe it is to ensure that Coalition trained 
and equipped forces actually stay on duty? b. Why wasn't there a system 
in place from the very beginning to track how many Coalition trained 
forces stayed on duty? c. How is the Department of Defense addressing 
this situation? d. Has the Department started to develop a system for 
tracking trained, on-duty personnel?
    General Dubik. Regarding item a), neither MNSTC-I nor USCENTCOM can 
respond on behalf of the Department of Defense. Likewise, for item b), 
the current MNSTC-I/USCENTCOM staff cannot comment on decisions 
regarding the initial structure and functions of MoD and MoI systems 
since it would be conjecture. It is also important to note that these 
are Iraqi systems built to service perceived Iraqi challenges.
    Recruiting is not an issue and the lack of a codified retention 
mechanism does not appear to measurably impact the month-to-month 
payroll data for MoD or MoI aggregate personnel manning or unit 
strengths. Both ministries share monthly personnel data and payroll 
data with the MNSTC-I advisory staff. These reports provide MNSTC-I 
visibility on updated strength of all MoD and MoI units as of the 
reporting date.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. GINGREY
    Dr. Gingrey. General, we studied the progress of the ISF in the 
Oversight and Investigations Subcommittee last year under the guidance 
of then Chairman Meehan and Ranking Member Akin. There were a number of 
challenges that seemed to continually surface during our discussions 
that I'd like to follow-up on today. The first is that the Iraqi Police 
Service still reports that the force only has approximately 50% of the 
issued pistols, machine guns, and body armor on hand. At the time of 
the O&I investigation, the DOD Inspector General, General Claude 
Kicklighter, was leading an investigation regarding American supplied 
weapons for the ISF; the New York Times had published accounts that 
weapons provided for or intended for the ISF had been used in crimes in 
other countries (Turkey); and a report from the Special Inspector 
General for Iraq Reconstruction indicated that a very small percentage 
of small arms provided to the ISF had been registered with the DOD's 
Registry of the Small Arms Serialization Program. Can you address these 
points? Is there a chance that because of the lack of accounting for 
the weapons we provide that they are possibly being used against us 
right now in Iraq or elsewhere? Can we fully account for the ISF's 
receipt of U.S. funded equipment? How are we working to improve our 
knowledge of where the weapons we provide are, and how are we working 
to ensure they are not ending up in the hands of bad actors? A second 
point that kept coming up was that desertion rates were high, and a lot 
of times soldiers and police would not report for duty. This was due in 
part to the lack of a central banking system--soldiers would collect 
their pay and leave to take it home to their families--and many would 
never report back for duty. How are we mitigating circumstances such as 
this--are the Iraqis improving in this area?
    General Dubik. We invited the DOD Inspector General to Iraq in 
order to provide MNSTC-I with an external assessment of weapons control 
and accountability procedure in an effort to improve MNSTC-I processes 
and to provide better accountability. MNSTC-I has implemented remedial 
or corrective measures for all the DODIG findings. Our primary 
consideration in requesting this assessment was that, in the period 
prior to 2006, some accountability procedures appear to have been 
insufficient. For example, we recently discovered that serial numbers 
for a small number of Glock pistols recovered in Turkey are linked to 
shipment from the 2004-2005 timeframe. Transfer procedures from MNSTC-I 
to Iraqi Security Forces include a complete serial number inventory of 
all weapons. Current issue procedures for individual weapons in both 
the MOD and the MoI entail serial number inventories, signature, 
photographs and biometric data for each soldier or policeman receiving 
a weapon. To put this in context, these measures are far more rigorous 
than the accountability control procedure we have for our own soldiers, 
who sign for their weapons by serial number.
    Desertion is not a significant factor in getting Iraqi troops into 
the security fight. The lack of an automated pay mechanism is still a 
challenge. The process does create periodic authorized absences--
however, most soldiers who take their pay home return to duty. This is 
mitigated by increasing assigned strengths in five of 14 divisions to 
120% of authorizations and nine of 14 to 135%. Likewise, it is 
important to remember that desertion is symptomatic of many, variable 
issues, not simply the lack of automated pay. As development of 
ministerial and institutional systems and processes continues, we will 
continue to focus on professionalization of the leadership in the ISF 
and enforcing professional standards of conduct.

                                  <all>

</pre></body></html>
